<html>
<title> - THE STATE OF INTEROPERABLE EMERGENCY COMMUNICATIONS ALONG THE TEXAS BORDER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE STATE OF INTEROPERABLE EMERGENCY COMMUNICATIONS ALONG THE TEXAS 
                                 BORDER

=======================================================================

                             FIELD HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 19, 2008

                               __________

                           Serial No. 110-94

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
44-393 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

Loretta Sanchez, California          Charles W. Dent, Pennsylvania
Norman D. Dicks, Washington          Mark E. Souder, Indiana
Nita M. Lowey, New York              Mike Rogers, Alabama
Eleanor Holmes Norton, District of   David Davis, Tennessee
Columbia                             Peter T. King, New York (Ex 
Donna M. Christensen, U.S. Virgin    Officio)
Islands
Bob Etheridge, North Carolina
Bennie G. Thompson, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     3

                               Witnesses

Mr. Chris Essid, Director, Office of Emergency Communications, 
  Office of Cybersecurity and Communications, Department of 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Steve E. Landin, Deputy Chief, Emergency Management 
  Coordinator, Laredo, Texas:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Alfonso Olvera Ledezma, Director of City Security, Nuevo 
  Laredo, Tamaulipas, Mexico:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29
Mr. Joe M. Peters, Director, Technology Assistance Division, 
  Sheriffs' Association of Texas:
  Oral Statement.................................................    31
  Prepared Statement.............................................    34
Mr. Michael Simpson, State-wide Communications Interoperability 
  Plan Coordinator and Technology Advisor, Texas Radio Coalition:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39

                             For The Record

Hector F. Gonzalez, MD, MPH, Director of Health, City of Laredo 
  Health Department, Laredo, Texas:
  Statement......................................................     7

                                Appendix

Questions From Chairman Henry Cuellar............................    55


  THE STATE OF INTEROPERABLE EMERGENCY COMMUNICATIONS ALONG THE TEXAS 
                                 BORDER

                              ----------                              


                       Tuesday, February 19, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                        Laredo, TX.
    The subcommittee met, pursuant to call, at 10 a.m., in Room 
116 of the Western Hemispheric Trade Center, Texas A&M 
International University, Laredo, Texas, the Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Dent, and Souder.
    Also present: Representative McCaul.
    Mr. Cuellar. Mayor, thank you again very, very much. The 
Subcommittee on Emergency Communications, Preparedness, and 
Response will now come to order. The subcommittee meeting today 
is to receive testimony regarding the state of interoperable 
emergency communications along the Texas border. The Chair 
would like to acknowledge that a Member of the committee who 
does not sit on the subcommittee assembled today, Mr. McCaul, 
has asked to participate in today's hearing. As you know, he is 
a Member of Homeland Security, a Chairman of one of the 
subcommittees recently, and consistent with the rules and the 
practices of the committee, we're pleased to honor his request, 
and I now ask unanimous consent to allow Congressman McCaul to 
sit and question the witnesses at today's hearing. Without 
objection, it is so ordered.
    Again, good morning to all of you all. On behalf of the 
Members of the subcommittee, let me first welcome our panel of 
witnesses that we have here today who'll work everyday to make 
sure that their community and our country are prepared for any 
and all threats. We applaud your efforts and we're glad that 
you are here today. Also, I would like to thank the Ranking 
Member of this Chair, Charlie Dent, from Pennsylvania. Both 
Charlie and Mr. Souder also came a long way, Michael from the 
Austin/Houston area. Souder is from Indiana and then we've got 
somebody from Pennsylvania, so welcome to our warm weather down 
here in south Texas, and, actually, it's cool today. I just 
want you to know it's cool today. I know that--I know that 
Charlie and Michael have been--I think this is their second or 
third visit for both of them, and, again, for Souder, again, 
welcome here today.
    I also want to say to all the Members, thank you. As you 
know, we're in Washington. This week we're off here in the 
districts and, again, for them to take time away from Indiana, 
from Pennsylvania, from the Houston/Austin area to come down 
here to spend some time on an issue that's important not only 
for the southern border, but for the northern border. We 
certainly want to say thank you.
    The purpose of this hearing is to examine the continuing 
challenges and highlights, successful practices toward 
achieving interoperability. As you know, along our Nation's 
borders that is an issue that's very, very difficult because--
again, because of the multi-dimensional issues that we have. 
It's not only on the U.S. side working with State, local and 
Federal partners, but on the borders you got to work with our 
partners across the river which is again very important. 
Specifically we will assess the cross-border emergency 
communications capabilities in south Texas as well as the 
coordination and planning between Federal, State and local 
governments. The United States shares nearly 6,000 miles of 
border with both Canada and Mexico. The communities along those 
borders face very unique challenges. For instance, Laredo, 
which is the largest inland port in the United States, sees 
thousands of shipments of hazardous materials pass through this 
port everyday. In addition, the large amount of contraband that 
flows across the border and the violence associated requires a 
coordinated local, State, Federal and international effort. The 
ability to communicate during an emergency is key to that part 
of coordination, not only for the law enforcement, but also for 
health and environmental reasons also. The challenges to 
achieve this interoperability are not--it's not a new 
phenomena. I think if you look at the history just a few years 
ago, firefighters, police and other emergency responders had 
trouble talking at the Oklahoma City bombing or the 9/11 or 
during the Hurricane Katrina. So it's something that we have 
seen, but we need to make sure that we take the actions so we 
don't see this in the future. This is why Congress after the 
Hurricane Katrina created the Office the Emergency 
Communications at the Department of Homeland Security to 
centralize and to coordinate emergency communications work at 
the Department and make sure that public safety systems at all 
level of government are able to communicate.
    After a few--after a slow start, I'm hopeful that this 
office can finally take the leadership role that many of us in 
Congress have visioned. I know we have a new leader here. We 
appreciate Mr. Essid, your work here. We're going to get an 
update from Mr. Essid, the new director of the Office of 
Emergency Communications at the Department, and we certainly 
all of us want to make sure that we work with you. I also look 
forward to having Steve Landin, Laredo's department of--deputy 
fire chief and emergency management coordinator to discuss 
personnel equipment, other resources, challenges that face the 
border community like we have here and also the other border 
communities that we have up and down the river.
    I also look forward to hearing from a witness from Nuevo 
Laredo, Mr. Ledezma, the director of city security. Thank you. 
[Spanish.] Who'll give us a unique insight to the cross-border 
of communications. Finally, we have two individuals, Mr. Peters 
and Mr. Simpson, who are here to talk about the State-wide 
efforts to make sure that we connect the--you know, the 
planning, the governing structure that's present throughout the 
State of Texas.
    As you know, the State of Texas does--as you know, the 
Federal Government Homeland does provide moneys--this is 
important to note. Gives money not only to the individual 
entities at the local level, but if you look at the numbers, 
the Homeland Security gives million and millions and millions 
and millions of dollars to the State to make sure that they 
then distribute those dollars down whether it's our local areas 
or whether it's emergency or whether it's volunteers or other 
areas to make sure that we get our job done. So the Federal 
dollars come two ways. One is directly to the cities and the 
counties and the other way to the State so the State can then 
distribute this out. Certainly I can tell you on behalf of the 
Federal Government we certainly want to work with the State to 
make sure that we have the best distribution system in place.
    The second hearing that we're having also--this is a second 
hearing, should I say, that our subcommittee has been looking 
into emergency preparedness issues along the border. So, again, 
it's not the first time we're doing this. It's the second time 
we want to make sure that we understand the border and it is 
our intention to continue raising this issue, shine lights on 
any challenges or difficulties that we might have to look at 
and give credit to those who have made good steps toward 
ensuring that the first responders have operable and an 
interoperable emergency communication system.
    Again, I want to thank the witnesses again for their 
testimony. The Chair now will recognize--what I'm going to do 
is--usually what we do is we just recognize the Ranking Member, 
but I will recognize the Ranking Member of the subcommittee, 
Mr. Charlie Dent, and then I'm going to ask Mr. Souder and Mr. 
McCaul if they want to add testimony--I mean have an opening 
statement. So, again, Charlie, again, welcome back to Laredo 
again.
    Mr. Dent. Thank you, Chairman Cuellar. It's good to be here 
again in Laredo. I was here in August 2006 and I really enjoyed 
that experience, and, again, Mayor Salinas, thank you for your 
wonderful hospitality. Hopefully you'll make it to eastern 
Pennsylvania one of these days. Our greeting in Pennsylvania 
Dutch is ``willkommen'' and we'll also give you shoo-fly pie 
just to add to your cardiac problems. Very good just the same.
    Also, this community--I've often heard down here that this 
is one community separated by a river. I live in eastern 
Pennsylvania and we border the State of New Jersey, and for the 
longest time my State slogan was ``America starts here''. It 
was just a slap at New Jersey, and I hope that the--I want to 
get a good sense today of the state of interoperable 
communications not just within Texas, but also across the 
border. I'm curious to see if your efforts are better than what 
we have between our two States. But before I get into my 
remarks, I'd like to ask unanimous consent that Mr. Mike 
Simpson replace Mr. Peter Collins on our panel of witnesses. 
Mr. Collins is unable to be here due to an emergency, but his 
deputy, Mr. Simpson, is equally knowledgeable, so I'm pleased 
he is here with us this morning. I'd just like to make that 
statement.
    I'm also pleased to be here in Laredo today with Chairman 
Cuellar to examine the critical issue of interoperable 
emergency communications. First responders and public safety 
officials across the country face critical challenges in 
achieving interoperable communications everyday. We certainly 
learned this lesson very hard after 9/11. For those on the 
border communities such as Laredo the challenges can be that 
much more acute due to additional international factors. For 
instance, police and firefighters may encounter interference in 
their radio communications because Mexico does not regulate and 
enforce the use of radio frequencies the same way we do. The 
increased demand for interoperable emergency communications may 
also be particularly challenging due to Laredo's status as the 
largest land border port of entry.
    I'm pleased we have with us today Mr. Chris Essid from the 
Department of Homeland Security's Office of Emergency 
Communications. Mr. Essid is the first director of this new 
office that was created by the Post-Katrina Emergency 
Management Reform Act of 2006. I look forward to hearing from 
Mr. Essid on how his office is reaching out to State and local 
officials to help them address their interoperability 
challenges. I also look forward to discussing with him how the 
Federal Government is working to develop the National Emergency 
Communications Plan that will help guide future spending on 
interoperable communications.
    Also with us today are State and local officials 
representing the emergency management, law enforcement, and 
information technology communities. I also look forward to 
hearing their views regarding the challenges to achieving 
interoperability, the transition to the use of the 700 
megahertz frequency, and overall coordination throughout the 
State. It's my understanding that the entire State of Texas was 
involved in drafting the State's interoperable communications 
plan and that the latest application for grant funding was also 
coordinated across all jurisdictions. It's certainly a 
tremendous achievement to bring everyone to the table to 
discuss critical communications issues. I look forward to 
hearing more about how this was achieved and also look forward 
to hearing about the state of interoperable communications 
across the river.
    So, again, I want to thank all the witnesses for being here 
today and for sharing your expertise with us on this important 
issue. I really thank you, Chairman Cuellar, for inviting me 
back. It's just great to be here again. This is a wonderful 
tight-knit community, very hospitable and I thank the mayor 
again for all the courtesies he's extended to me each time I 
have been here. It's good to know more about this wonderful 
community. So thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thanks very much. Mr. Souder.
    Mr. Souder. Thank you very much. I appreciate also the 
opportunity to be here. It was just really great that you got 
the Hotel Posada to get remodeled so that we have a wonderful 
place to stay. In addition to my interests in this subcommittee 
and in communications in general, my hometown, Fort Wayne, 
Indiana, is the center of defense and Homeland Security 
communications for the SINCGARS radio and a lot of the 
interoperable systems through General Dynamics and others that 
are so important, not only between trying to connect local 
police and fire to Federal systems, but also looking at how we 
connect people in the forest fires when we have them out West. 
Often they can't talk to each other when they get in. As we 
look at these emergency communications, it becomes especially 
critical, and it's also critical to the employers in my 
district, as we build many of these communication systems, so I 
appreciate the opportunity to be here.
    My primary responsibility in Homeland Security is I'm their 
Republican leader on the border security and global 
counterterrorism subcommittee, and I apologize for being late. 
I was actually out on the river with the Border Patrol this 
morning, seeing some of the challenges of not being able to see 
the water as you are walking along the border trails there and 
some of the challenges that we face in those areas.
    I'm also co-chair and founder of the drug policy caucus in 
Congress and have spent much of my career as the narcotics 
chairman in Congress working in much of our--the narcotics that 
flow in Indiana come across the border between here and 
McAllen, and so it is a huge issue on mobile fronts in addition 
to the ability to respond to emergencies. I'm taking the rest 
of this week and will be going up to Eagle Pass and Del Rio, 
then on to Big Bend, Marfa, and over to El Paso in this section 
of the border. I spent much of my career on the north and south 
borders, but Texas, particularly that zone from here over to El 
Paso is--becomes more wild as it goes. In fact at the Academy 
Awards this week, two of the nominated movies were filmed over 
in Big Bend because it's so abandoned over there.
    So I look forward to this time in Texas. I'm sorry I didn't 
bring a big load of Indianapolis Colts things. I think a banner 
would have been great down here and would have outrun the 
supply. Thank you very much.
    Mr. Cuellar. Thank you very much. At this time I'll 
recognize--the Chair will recognize Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, and, Mayor, thank you 
for all your hospitality, as always. I look forward to seeing 
you in Washington. I think in a week or two from now, I think, 
and let me give an advance congratulations to Chairman Cuellar 
and his designation as Mr. South Texas in the Washington Day 
Parade. Sorry I won't be there to celebrate with you. Let me 
just--if I could comment on the Chairman. He has been a real 
leader in the Congress on these issues and I am very proud to 
work with him. We've been very focused on border-related issues 
recently coming back from Mexico City where we met with 
President Calderon for a very long period of time and the 
Mexican Attorney General about drug cartels and security issues 
that we have at the border. I sense that there's a real 
sincerity with the Mexican Government to work with us, and 
there's an opportunity--a unique one for real partnership 
between the two countries, and I know that's a passion that the 
Chairman shares and that I share with him, and I know that 
we'll be working hard in the Congress to facilitate that.
    This is an important issue and I want to thank the panel 
for being here. Our ability to communicate was identified after 
9/11 by the 9/11 Commission as one of the weaknesses, and we 
didn't have adequate communications between Federal, State, and 
local officials. We didn't--we had silos. We had turf battles. 
I was in the Justice Department for a while, as was the Mayor, 
and I'm sure he can tell you that the turf battles were 
counterproductive. The communication didn't flow. We were not 
able to connect the dots and that actually, ultimately, led to 
the events of 9/11 in my view. I think that our ability to 
communicate more effectively in today's world is absolutely 
paramount to protecting the American people from not only a 
man-made disaster, but a natural disaster, as we have seen not 
only with 9/11 but also with Katrina and Rita.
    I will say that the--it's really important--this is such an 
unique area. I went out with a rancher yesterday to look at his 
stretch of the ranch on the river. He really--I encourage 
Members to come down and see it because you can't really have 
an appreciation and an understanding for the border until 
you've been down here to witness it and to talk to the people 
that live here. It's a very unique area. It's important because 
the amount of cross-border trade and the fact that such an 
event, whether it be man-made or natural, could affect citizens 
on both sides of the river.
    The Homeland Security Act of 2002 required the development 
of a National Emergency Communication Plan, and in 2006 the 
Post-Katrina Emergency Management Reform Act established the 
Office of Emergency Communications, or the OEC, of the 
Department of Homeland Security. The OEC is the principal 
Federal office in charge of strengthening emergency 
communications Nation-wide by coordinating with Federal, State, 
and local governments, and I look forward to hearing Director 
Essid's testimony about the progress that his office has been 
making. The Federal Government has also been helping State and 
local authorities by providing funding through the Public 
Safety Interoperable Communications grant program.
    I'm pleased to say that Texas has been ahead of the curve 
as usual, a real leader in developing their own State-wide 
Communications Interoperability Plan, and was one of the 
largest recipients of the grant funding. Much of this is due to 
the work, in my judgment, of the Texas Radio Coalition, an 
organization that I've been personally very involved with and 
look forward to hearing from Mr. Simpson and his testimony 
about the work that the coalition has done and the challenges 
that you have.
    Finally, I look forward to hearing from Deputy Chief 
Landin, who is the emergency management coordinator here in 
Laredo, Director Ledezma, as well as Director Peters from the 
Sheriffs' Association of Texas about what challenges you have 
in communicating and coordinating and what funding you need 
from the Congress to better do your job. So with that I'll go 
back to Mr. Chairman and thank you for holding this hearing.
    Mr. Cuellar. Thank you very much, Mr. McCaul. The Chair now 
asks the unanimous consent to allow testimony from Dr. Hector 
Gonzalez, the Director of Health from the city of Laredo Health 
Department to be inserted for the record, and without 
objection, his testimony--thank you very much, Hector, for your 
testimony.
    [The statement of Dr. Gonzalez follows:]

 Statement of Hector F. Gonzalez, MD, MPH, Director of Health, City of 
                Laredo Health Department, Laredo, Texas
                           February 19, 2008

                            A. INTRODUCTION

    Mr. Chairman and Members of the House Emergency Communications, 
Preparedness, and Response Subcommittee, my name is Dr. Hector F. 
Gonzalez, Director of Health for the city of Laredo. Today Chief Steve 
Landin of our Fire Department and who is also our Emergency Management 
Coordinator will address you on the importance of interoperable 
communication especially as it impacts the U.S.-Mexico border. In 
addition he will share some of our successes and best practices such as 
the newly activated critical first responder and emergency management 
interoperable communication-800 megahertz trunking radio system, which 
now needs to be enhanced for public health interoperable communication.
    My colleagues and I are addressing you to provide testimony on best 
practices, our unique communication and emergency operations issues as 
well as resources to adequately protect not only our community but the 
entire Nation through our first responder system, emergency care 
services and all hazards public health response on the U.S.-Mexico 
border (and in particular in Laredo). I will specifically share with 
you our Laredo public health response experience and the need for 
critical interoperable communications.
    Mr. Chairman as you know border communities and in particular 
Laredo do not just respond to local disasters, incidents or public 
health threats (even though resources are only provided based on local 
need), the truth of the matter is that our role is both regional and 
national.

                    B. NEW FIRST RESPONDER PARADIGM

    Since 9/11, the first responder paradigm changed; no longer do we 
view first responders and public health preparedness in the same way. 
Nowhere is this more evident than in Laredo where the Chiefs of Police 
and Fire and myself work intimately close to respond to disasters and 
all hazard incidents: biological, chemical and radiological. Because of 
our model both the Fire Chief and I sit on the Governor's Homeland 
Security Advisory Committee and I sit on the State Communications Plan 
Advisory Committee. Mr. Chairman, Laredo has developed resources and 
contributed more than its fair share as we have always recognized that 
it is our community but everyone's border to protect. We maximize 
resources and manage all responses in a regional manner as resources 
have never been sufficient. Consequently we created our own response 
expertise especially for all public health threats. For us it is 
routine to respond locally, regionally and in our case internationally. 
We are the State and Federal responders as there is no one else to 
respond.

  C. POTENTIAL EMERGENCY INFECTIOUS DISEASE AND ALL HAZARDS RESPONSE 
                  REQUIRES INTEROPERABLE COMMUNICATION

     Just over 4 months ago we got a call from the Centers for Disease 
Control and Prevention (CDC) Quarantine Station (QS) from El Paso about 
a Cuban refugee with probable Tuberculosis. Three days later we got a 
call again from the QS that 3 Cuban families seeking political asylum 
had children sick with ``smallpox''. Both the Public Health Chief of 
Disease Control and Emergency Response and I did the actual work-up and 
investigation--ruling out ``smallpox'' but also assessing over 20 
additional refugees that could have gone undetected for any potential 
infectious problem and served as a threat not just to Laredo but to 
multiple communities along their route to Florida. If this had truly 
been ``smallpox'' it would have been a bioterrorist act that required 
immediate intervention of both FBI and CDC as well instant 
communication with Customs and Border Patrol (CBP). At the present we 
would not have been able to radio emergency management preventive and 
triage orders. Definitely we would not have been able to communicate 
with Mexico.

              D. CHALLENGES TO INTEROPERABLE COMMUNICATION

    Rapid and efficient communication in an all-hazards emergency 
response specifically for public health is critical, especially along 
the U.S.-Mexico Border, among all public health jurisdictions. In fact 
Public Health Data Communication Exchange takes into consideration all 
of the factors that influence the health of communities and 
individuals. There is a need to develop total public health data 
communication integrated and interoperable systems, also considered 
medical intelligence, in our case border medical and public health 
intelligence. Some of the barriers that need to be addressed are:
  <bullet> Interference and dropped calls with cellular communications;
  <bullet> Local calls to Mexico are international and long distance in 
        some cases;
  <bullet> Different bands, not enough communication relay towers;
  <bullet> Lack of rapid efficient radio communication with State and 
        Federal partners as well with Mexico for public health 
        response;
  <bullet> Not enough Binational Interoperable Communication Training;
  <bullet> Lack of interoperable communication with other public health 
        departments along the U.S.-Mexico Border in the event of a 
        public health disaster;
  <bullet> Lack of multi-agency interdisciplinary approach to provide 
        the total disaster perspective and based on evidence;
  <bullet> More efficient data communication integrated links. At the 
        present, an overwhelming vast amount of data is available, but 
        we lack the ability to link different sources into one 
        integrated cost-effective, rapid and efficient program with 
        interoperable communication capacity.

                           E. RECOMMENDATIONS

    1. Enhance Laredo's 800 megahertz interoperable communication 
        infrastructure system for Public Health emergencies.
    2. Purchase additional radios and develop special channel for 
        interoperable emergency rapid communication with State and 
        Federal partners as well with Mexico.
    3. Develop rapid interoperable communication with other public 
        health departments from Brownsville to El Paso, Texas.
    4. Assure secure communication among public health responders.
    5. Develop mobile data communication capacity for public health.
    6. Enhance reporting through syndromic surveillance to assist 
        public health officials in the field to detect and confirm as 
        well have the capacity for interoperable communication.
    7. Increase the capacity of the Early Warning Infectious Disease 
        Surveillance (EWIDS) system to test, confirm and detect public 
        health disease threats along the U.S.-Mexico Border with 
        interoperable communication capacity.
    8. Develop continuous training with all partners on 
        interoperability.
    9. Acquire biological airborne permanent environmental detection 
        systems, such as, ``BIOWATCH'' for early detection of the 
        release of pathogens into the air, providing warning to the 
        public health community of a potential bioterrorist event. This 
        system then needs to be linked to interoperable systems once we 
        know if a hazard.
    10. Link interoperable communication systems to the Laboratory 
        Regional Network such as at the city of Laredo Health 
        Department.
    11. Interoperable EWIDS communication.

                    F. SUCCESSES AND BEST PRACTICES

  <bullet> Joint simulated training with all partners and Mexico with a 
        special emphasis on interoperable communication.
  <bullet> Ongoing routine meetings to enhance communication.
  <bullet> 800 MHz radio interoperability established.
  <bullet> Emergency Operations Center functions with interoperability.
  <bullet> EWIDS Public Health expert weekly exchange of public health 
        disease and surveillance data.
  <bullet> Binational monthly public health training with limited 
        simulations that include some interoperable communication 
        testing.

                             G. CONCLUSION

    The United States is under a constant threat of an intentional or 
unintentional medical, biological or chemical attack especially along 
our U.S.-Mexico Border. In Laredo we say ``When Nuevo Laredo, Mexico 
coughs, Laredo, Texas gets the cold.'' Disease does not respect a 
border.
    When you think of the potential public health threats that can 
cause epidemics, or contaminate our water or food supply, there is no 
other area more vulnerable than the U.S.-Mexico Border and 
interoperable communication is fundamental.
    In Laredo, we are proud to provide the first line of defense for 
our community, the State and the Nation. I want to thank you for 
allowing me to provide this written testimony.

    Mr. Cuellar. Let me--again, before we get started with the 
witnesses, again, I have to again thank this Member. You will 
see by the line of questioning that these folks really know 
about Homeland Security. Someone from the northern part of the 
United States, some of us from the southern part, but we're all 
working together in a bipartisan way to make sure that we 
address--I know all of them. They have all been in Homeland 
Security. They know the work that they do is something that is 
very important to all of us, and I certainly want to thank all 
of them for being here.
    Also, I would like to say that our committee works on a 
bipartisan way with the Ranking Member, Peter King, and our 
Chairman, Bennie Thompson. In fact, Bennie Thompson will be in 
Laredo Friday, will be coming to Laredo Friday, will spend a 
day here with us on Friday--this Friday, so I certainly want to 
thank the Chairman and the committee staff, both the Republican 
and the Democratic staff for all of us working together. I 
certainly want to recognize Betty and, of course, Peter King 
also, a Ranking Member.
    Also, don't forget that after this, we have a 1:30 grants 
seminar where we've got Homeland that will be talking to us 
about the different grants that are available, what timetable, 
what are the criteria to make sure that you take full advantage 
of the opportunities that are available. It's a very unique 
type of seminar that we'll have here, and I certainly want to 
thank everybody for participating.
    At this time I will go ahead and move onto the witnesses. I 
first welcome the panel of witnesses. First of all, our first 
witness is Mr. Chris Essid, who's the director of the 
Department of Homeland Security, Office of Emergency 
Communications. Prior to his position, he served as the first 
interoperability coordinator the Commonwealth of Virginia. Mr. 
Essid is veteran of the U.S. Army and holds a master's degree 
in public administration. Again, thank you. It's good seeing 
you again and welcome to our hometown.
    The second witness is Mr. Steve Landin, who's the assistant 
fire chief and emergency management coordinator for the city of 
Laredo, has been a member of the Laredo Fire Department for 18 
years, holds a Bachelor's Degree in finance, economics with an 
emphasis in fire administration from the Empire State College. 
Thank you, Steve, for being here with us.
    Our third witness is Alfonso Olvera Ledezma, who serves as 
the director of security in Nuevo Laredo for Tamaulipas. Mr. 
Ledezma, again, has been a 16-year veteran of the Mexican State 
Government. Thank you for being here with us. [Spanish].
    Our fourth witness is Mr. Joe Peters, who serves as a 
director of Technology Assistance Division of the Sheriffs' 
Association of Texas in Austin covering communications 
interoperability. Prior to his position he served for 30 years 
as a member of the Texas Department of Public Safety as a 
trooper, highway patrol sergeant and as a Texas Ranger. Mr. 
Peters currently serves as a communications committee liaison 
between the Sheriffs' Association of Texas and the Texas 
Congressional Delegation, State legislators and State agencies. 
Welcome.
    Our fifth witness is Mr. Michael Simpson, the wireless 
communication services manager for the city of Austin. He's 
also the State-wide Communications Interoperability Plan 
Coordinator and Technology Advisor for the Texas Radio 
Coalition. Again, Mr. Simpson, welcome.
    We're all pleased to have you here. Without objection, the 
witnesses' full statements will be inserted into the record, 
and now I'll ask each witness to summarize his statement for 5 
minutes beginning with Director Essid.

    STATEMENT OF CHRIS ESSID, DIRECTOR, OFFICE OF EMERGENCY 
  COMMUNICATIONS, OFFICE OF CYBERSECURITY AND COMMUNICATIONS, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Essid. Good morning, Chairman Cuellar, Congressman 
McCaul and Members of the subcommittee. From its inception the 
Department of Homeland Security has worked closely with 
Congress and the administration to address the--to address the 
human, technical and governance challenges of interoperability, 
one of Secretary Chertoff's highest priorities for the 
Department. Personally, I've learned a great deal about the 
realities of implementing interoperability solutions at the 
State and local level as Virginia's interoperability 
coordinator, and I'm excited about the opportunity to apply 
those lessons as we all work together to improve emergency 
communications across our Nation.
    Since becoming operational on April 1, 2001, the Office of 
Emergency Communications has focused on the development of a 
national emergency communications plan, the national 
communications capability report and the integration of three 
interoperability programs transferred from within DHS entities, 
the Integrated Wireless Network, the Interoperable 
Communications Technical Assistance Program and Elements of the 
SAFECOM program.
    As a coordinator of cross-governmental initiatives, OEC is 
implementing shared infrastructure projects through the Federal 
Partnership for Interoperable Communications, known as FPIC, a 
partnership of Federal, State and local agencies with a public 
safety mission to enhance the interoperability of Federal 
departments and agencies.
    Interoperability grant programs require States and 
territories to develop State communications interoperability 
plans. This requirement and the planning efforts of the States 
and localities mark critical milestones in breaking down the 
coordination barriers of the past and establishing a roadmap of 
a future interoperability. As of December 3, all 56 States and 
territories submitted State-wide communications 
interoperability plans. For the first time, all States have 
plans for interoperable communications and the tools to measure 
their progress toward realizing their interoperability goals. 
This is a very significant accomplishment. As you know, border 
regions in our country face an even broader set of challenges 
as they work to achieve cross-border interoperability. OEC must 
collaborate closely with agencies that share responsibility for 
overcoming these domestic and international challenges 
including the U.S. Department of State, the National 
Telecommunications and Information Agency and the Federal 
Communications Commission.
    Currently, OEC is engaged in several activities to address 
and resolve issues at the technical, operational, policy and 
regulatory levels that are hindered--that have hindered the 
realization of cross-border interoperability at the Federal, 
State, local and tribal level on both the northern and our 
southern borders.
    The United States-Mexico High Level Consultative Commission 
on Telecommunications Security Communications Task Group is 
developing a bilateral solution that will establish a long-term 
interoperability solution between the United States and Mexico 
along the southwest border.
    The 2010 Olympics Task Force Security Subcommittee 
Communications Interoperability Working Group is coordinated 
among the Federal, State, and local emergency responders along 
the northwest border to develop and exercise an 
interoperability plan for the 2010 Olympics in Vancouver, and 
the Federal Partnership for Interoperable Communications 
Southwest Border Communications working Group is working 
closely with Texas, Arizona, California and New Mexico to 
coordinate initiatives and user needs at the Federal, State, 
local and tribal levels along the southwest border.
    Spectrum sharing and information assurance are two common 
and important policy issues currently being addressed by these 
groups. Additionally, as a former State interoperability 
coordinator I recognize the important of cost-effective, 
technical and operational solutions that adequately address 
interoperability requirements. Finally, these solutions must be 
included in operational plans and must be a key element in 
operational training and exercises. We are actively working 
with practitioners and planners throughout the Nation to 
provide guidance, coordination and assistance at both the 
technical and operational level.
    In conclusion, improving interoperability on our northern 
and southern borders is of paramount importance to the safety 
and security of our Nation. The Office of Emergency 
Communications serves as a as focal point for the coordination 
of long-term cross-border interoperability solutions that 
address user needs and policy requirements of all three 
countries. Through FPIC and other forms, the Office of 
Emergency Communications will continue to cultivate 
relationships between the Canadian, Mexican and American users 
and regulatory agencies across all levels of government to 
better identify and address barriers to interoperability.
    I appreciate the opportunity to discuss OEC's activities 
and I look forward to working with this subcommittee to help 
meet the emergency communication needs of our Nation.
    [The statement of Mr. Essid follows:]

                   Prepared Statement of Chris Essid
                           February 19, 2008

                              INTRODUCTION

    Good morning Chairman Cuellar, Ranking Member Dent, and Members of 
the subcommittee. I appreciate the opportunity to testify on cross-
border interoperable communications issues. I am Chris Essid, the 
Director of the Office of Emergency Communications (OEC).
    OEC is a component of the Office of Cybersecurity and 
Communications (CS&C) within the National Protection and Programs 
Directorate of the Department of Homeland Security. Assistant Secretary 
for Cybersecurity and Communications Gregory Garcia is responsible for 
the overarching mission of CS&C to prepare for and respond to incidents 
that could degrade or overwhelm the operation of our Nation's 
information technology and communications infrastructure. This mission 
is part of a larger strategy to ensure the security, integrity, 
reliability, and availability of our information and communications 
networks.
    From its inception the Department of Homeland Security has worked 
with Congress and the administration to address the human, technical, 
and governance challenges of interoperability. Indeed, interoperability 
is one of Secretary Chertoff's highest priorities for the Department.

               MISSION, RESPONSIBILITIES, AND ACTIVITIES

    Title XVIII of the Homeland Security Act, as amended, assigns to 
OEC the mission of advancing interoperable and operable emergency 
communications through collaboration with Federal, State, local, and 
tribal partners. Since becoming operational on April 1, 2007, OEC has 
focused on meeting its various mission requirements, including the 
integration of three interoperability programs transferred from other 
DHS entities: the Federal wireless programs under the Integrated 
Wireless Network (IWN), the Interoperable Communications Technical 
Assistance Program (ICTAP), and outreach, guidance, and tool 
development by the SAFECOM program. We have also focused on working 
with our key stakeholders to identify their needs and gain a better 
understanding about the ever-changing interoperable communications 
environment.
    OEC is working to bridge interoperability gaps between Federal, 
State and local governments. As a coordinator of cross-governmental 
initiatives, OEC is implementing shared infrastructure projects, 
through the Federal Partnership for Interoperable Communications 
(FPIC)--a partnership of Federal, State, and local agencies with a 
public safety mission to enhance the operability and interoperability 
of Federal departments and agencies. OEC will continue to leverage the 
groundwork established by its Federal wireless partners and build on 
existing capabilities at all levels of government to enhance 
interoperable emergency communications. Further, we will be working 
with the National Communications System (NCS), which is also a 
component of CS&C, to coordinate our responsibilities for ensuring the 
continued operation of the telecommunications functions and 
responsibilities of the Federal Government.

                     NATIONAL PLANS AND ASSESSMENTS

    As directed by Congress, OEC conducts periodic assessments of the 
state of interoperability across the Nation and regularly reports on 
progress toward achieving national objectives as established by the 
President, Congress, and DHS. Development of the National 
Communications Capabilities Report of existing Federal, State, local, 
and tribal government capabilities is a key first step in our 
analytical efforts. The first phase of this report, currently under 
departmental review, builds on the findings and conclusions of studies 
and documents such as the National Interoperability Baseline Survey, 
Tactical Interoperable Communications Plans, Tactical Interoperable 
Communications Scorecards, and the Communications Asset Survey and 
Mapping (CASM) database.
    While past assessments like the Baseline Survey focused on State, 
local, and tribal interoperable communications, the Capabilities Report 
incorporates information from the Federal perspective to show the full 
scope of interoperable communications Nation-wide. The report aims to 
characterize the emergency communications challenges that must be 
addressed, the capabilities that exist to address them, and any gaps in 
capability availability or deployment.
    OEC will use the findings and recommendations from the report to 
develop a National Emergency Communications Plan (NECP) later this 
year. Since this will be a National Plan, OEC will be working closely 
with other DHS components and other Federal agencies with emergency 
communications roles and responsibilities, including the NCS, the 
Federal Emergency Management Agency (FEMA), and the Office for 
Interoperability and Compatibility, in addition to our stakeholders 
from regional, State, local, and tribal governments, and the private 
sector. Additionally, OEC has established the preliminary framework for 
activities of the Emergency Communications Preparedness Center, which 
Congress directed to coordinate the Federal aspects in the development 
of the NECP. The NECP will set goals and provide short-term and long-
term recommendations for addressing interoperability gaps and advancing 
operability and interoperability.
    Before we can begin building the NECP, however, we need to have a 
comprehensive understanding of the interoperability capabilities needed 
and those currently in use across the Nation. Thus, one of OEC's top 
priorities in the near term is to develop a robust assessment of the 
state of emergency communications, particularly gaps and 
vulnerabilities. The Capabilities Report noted above will give us much 
of this information, but we also will be gathering valuable input from 
other initiatives like the State-wide Communications Interoperable Plan 
(SCIP) review process, which ultimately will help us identify how OEC 
can advance the emergency communications capabilities of first 
responders and emergency management officials.
    A key component of a Nation-wide, cross-governmental understanding 
of emergency communications is the development of Communications Asset 
Survey and Mapping (CASM) tool. CASM is a web-based communications 
assets database that consolidates information about land-mobile radio 
systems and other interoperability assets and determines how they are 
being used by metropolitan and urban area public safety agencies within 
a State. OEC works with participating public safety agencies to 
populate CASM with their data and help them understand the 
interoperability methods used by neighboring agencies so they can plan 
accordingly. Recently, CASM has been upgraded to include a ``what if'' 
feature that allows users to see the consequences to communications 
assets in a variety of man-made and natural disaster scenarios. To 
date, more than 75 metropolitan/urban areas and States--representing 
more than 8,000 agencies--have entered data into CASM. Through 
attendance and tool demonstrations at national public safety 
conferences, FPIC meetings, and ongoing coordination with other DHS 
partners such as the member agencies of the National Communications 
System, OEC is reaching users and policymakers at all levels of 
government.

                   OUTREACH AND TECHNICAL ASSISTANCE

    OEC has participated in and supported a number of stakeholder 
forums and initiatives designed to promote awareness and build 
consensus among Federal, State, and local entities on policy and 
technical issues affecting interoperable communications. This includes 
dedicated interoperability events with groups such as the National 
Governors Association's State-wide Planning Workshops and the National 
Association of Counties/National League of Cities Interoperability 
Policy Academies. OEC leaders attend major conferences hosted by the 
National Public Safety Telecommunications Council, International 
Association of Fire Chiefs, the Association for Public-Safety 
Communications Officials and others. Additionally, a significant 
portion of OEC's stakeholder engagement occurs though the SAFECOM 
Executive Committee and Emergency Response Council. OEC leaders also 
understand the need for private-sector engagement in support of this 
mission and continue to meet with industry to learn more about new 
developments in interoperable equipment and technology.
    Building on these relationships, OEC provides technical assistance 
services to the practitioner community to foster the development of 
interoperable communications capabilities at the State and local 
levels. OEC's technical assistance helps States identify gaps in their 
communications infrastructure and determine technical requirements for 
an interoperable communications system. Technical assistance includes 
strategic and tactical communications planning, system feasibility 
studies, tabletop exercises, evaluations of communications sites and 
technologies, and on-site engineering support.
    During the preparations in the Gulf Coast Region for the 2007 
hurricane season, OEC moved from planning mode to technical-services 
support mode. There, OEC coordinated the accelerated delivery of 
communications equipment and training services to several hurricane-
prone States in the region well in advance of the season. The training 
addressed the usage of the equipment in its designated communications 
planning environment, as well as the need for coordination, governance, 
and a regional set of standard operating procedures for communications.
    The Office of Emergency Communications also provided on-site 
support for the 2007 Golden Phoenix, an Interoperability Joint Training 
Event, which had a scenario with an 8.0 earthquake in the greater Los 
Angeles area. Participants in the event include Los Angeles city and 
county multi-jurisdictional emergency responders, the California 
National Guard, and the Department of Defense (DoD). OEC ICTAP provided 
technical evaluators and planning assistance to measure and evaluate 
communications interoperability across the continuum of first 
responders, DoD, and participating State and local government entities 
and non-governmental organizations. The event underscored the need for 
training opportunities among the various response groups and the 
challenges that might be encountered. OEC helped to document the 
challenges and findings.

            STATE-WIDE COMMUNICATION INTEROPERABILITY PLANS

    Historically, limited and fragmented planning and a lack of 
coordination and cooperation among disciplines and jurisdictions have 
hampered the emergency response community's ability to communicate 
during response efforts. To combat this problem, the DHS fiscal year 
2007 Homeland Security Grant Program (HSGP) required States and 
Territories to develop locally driven, multi-jurisdictional, and multi-
disciplinary State-wide Communication Interoperability Plans (SCIPs). 
Following coordination between DHS and the Department of Commerce's 
National Telecommunications and Information Administration (NTIA), NTIA 
has also incorporated the SCIP requirement as an element of its Public 
Safety Interoperable Communications (PSIC) Grant Program. The SCIP 
requirement and the planning efforts of States and localities mark 
critical milestones in breaking down the barriers of the past and in 
establishing a roadmap for the future of interoperability. As of 
December 3, 2007, all 56 States and Territories submitted SCIPs. For 
the first time States will have a plan for interoperable communications 
and a baseline to assess their progress toward realizing their 
interoperability goals.
    OEC provided technical assistance, outreach, and guidance to States 
and territories in the development of their SCIPs. The office developed 
and facilitated 35 SCIP development workshops, conducted 15 document 
reviews, and provided SCIP-development support to 48 of the 56 States 
and territories. In addition, OEC provided States and territories with 
the option of submitting preliminary SCIPs. Forty-two took advantage of 
this option, and OEC conducted a peer review process in October 2007 to 
provide critical feedback to those States and Territories on their 
preliminary plans before the final submission deadline.
    Upon final submission of the SCIPs in December 2007, OEC began 
working with its partners at FEMA and NTIA to facilitate a peer-review 
process to evaluate the SCIPs and supported NTIA in the evaluation of 
applicants' PSIC Investment Justifications. Just last week, panels of 
Federal, State, local, and tribal peers convened in St. Louis, Missouri 
to provide input on the approval of SCIPs. Based on this peer input, 
OEC will make decisions on whether a SCIP receives a ``pass'' or 
``needs additional information'' grade. The evaluated SCIPs with 
comments and recommendations will be returned to the States and 
territories by March 31, 2008. Technical assistance will be available 
to any State or territory that requests additional SCIP support.
    Through this process, States and territories will be receiving 
feedback from their peers on how to improve their planning efforts. As 
a result, the Department expects that the SCIPs will require periodic 
updates and enhancements. To promote the value of this process, future 
DHS grant programs will continue to build upon the progress made 
through the SCIPs to better target funding and ensure the State-wide 
planning process continues.

              INTEROPERABLE COMMUNICATIONS GRANT PROGRAMS

    In the Implementing Recommendations of the 9/11 Commission Act of 
2007, Congress authorized the Interoperable Emergency Communications 
Grant Program (IECGP) to provide grants to support projects which 
improve operable and interoperable emergency communications among 
Federal, State, regional, local, tribal and, in some instances, 
international border communities. This grant program will fund 
activities which comply with the SCIPs and with the National Emergency 
Communications Plan. Once completed, the National Plan will help frame 
the way-ahead for the Nation, and will be essential in helping the 
Department set national priorities for emergency communications and 
target-specific outcomes.
    FEMA and OEC share responsibilities for the IECGP, which will 
require continued coordination between the two organizations to ensure 
its success in producing measurable progress in improving 
interoperability. Fortunately, OEC already has an excellent working 
relationship in place with FEMA through our previous collaboration on 
the fiscal year 2007 HSGP, and our combined work in support of NTIA's 
PSIC Grant Program. For the IECGP, we will leverage our collective 
experience and expertise and build on the progress, requirements, and 
lessons learned from existing programs.

                CROSS-BORDER INTEROPERABILITY CHALLENGES

    Ensuring the ability of public safety agencies and officials to 
communicate across disciplines and jurisdictions and to exchange 
information on-demand during an incident is challenging enough from a 
purely domestic perspective. Interoperability challenges become even 
more difficult in our country's regions that border Canada and Mexico. 
As a result, OEC must collaborate closely with agencies that share the 
responsibility for surmounting these challenges, including the U.S. 
Department of State, NTIA, and the Federal Communications Commission 
(FCC). OEC is working with its stakeholders and partners in several 
areas to improve cross-border interoperable communications and manage 
challenges.

Spectrum Management
    The proper management of spectrum resources is key to achieving 
cross-border interoperability. The use of different spectrum bands 
among border communities in different countries is a significant hurdle 
to overcome: our emergency response partners in Canada and Mexico do 
not use U.S. frequency allocations, which results in the use of 
disparate frequencies. Establishing cross-border interoperability 
requires the use of additional technology solutions to bridge these 
disparate frequencies, or new cross-border agreements to allow 
emergency communications operations in the appropriate bands. OEC has 
established a close relationship with the Department of State, and 
continues to make headway on the issue.

Regulation
    The Federal Communications Commission and the National 
Telecommunications and Information Administration (NTIA) regulatory 
requirements must be met when establishing domestic interoperability 
among Federal, State, local, and tribal public safety agencies. To 
establish cross-border interoperability on the Canadian and Mexican 
borders, the requirements of Industry Canada \1\ and the Mexican 
Secretariat for Communications and Transportation (SCT) with support 
from the Federal Commission on Telecommunications (COFETEL) must also 
be met. Differing regulatory requirements in these agencies increases 
the amount of time and effort required to establish interoperability 
and coordinate spectrum use.
---------------------------------------------------------------------------
    \1\ Industry Canada is the spectrum regulatory body for Canada.
---------------------------------------------------------------------------
Coordination
    In an effort to ensure harmonious spectrum sharing along our common 
borders, the United States has entered into bilateral agreements with 
Canada and Mexico. As interoperability solutions are adopted, new 
bilateral agreements may be required to protect these solutions or 
exemptions to existing agreements may be needed to preserve the 
legality of the solution. These negotiations are conducted in 
conjunction with the Department of State; its early involvement is 
critical to the success of any interoperability solution that may be 
inconsistent with existing international telecommunications agreements.

Security
    Information assurance is a priority for public safety agencies. 
Many interoperability solutions, particularly those providing data 
interoperability, require multiple systems to interface, which creates 
several security concerns. These system security concerns must be 
factored into any cross-border interoperability solutions.

Geographic and Demographic Factors
    The immense size, varying terrain, and differing population 
densities of the U.S. border regions require interoperability solutions 
to be tailored to the implementation locales. For example, the most 
effective solution in a rural, desert location will not be appropriate 
for a mountainous, metropolitan area.

Operations
    Without comprehensive operational and exercise plans, the best 
technical interoperability solution may not realize its optimum 
effectiveness; therefore, all interoperability solutions must address 
operational interoperability. Additionally, the United States, Mexico, 
and Canada do not have a common incident management terminology, and in 
some instances there are language barriers to overcome.

        OEC INITIATIVES TO IMPROVE CROSS-BORDER INTEROPERABILITY

The United States-Mexico High Level Consultative Commission on 
        Telecommunications Security Communications Task Group
    The United States-Mexico High Level Consultative Commission on 
Telecommunications Security Communications Task Group (HLCC SCTG) was 
established in 2006 to address the need for security communications 
between the United States and Mexico. The SCTG is jointly chaired by 
OEC and the Mexican Secretary of Public Security. Initially, a short-
term solution was implemented that negotiated an exemption to an 
existing telecommunications protocol to allow the use of ten Mexican 
public safety radios in the State of Arizona. The SCTG's recommended 
long-term solution will provide voice and data interoperability between 
the United States and Mexico by establishing ten broadband microwave 
links between Customs and Border Protection (CBP) sites in the United 
States and the Centers for Control, Command, Communications, and 
Computers (C4) sites in Mexico. The SCTG finalized its recommendations 
and presented them to the HLCC in early February 2008.
    The identification of mutually acceptable frequencies has proven to 
be a challenge. Thanks to OEC's leadership, the SCTG has successfully 
worked with SCT and NTIA to license the frequencies for its long-term 
solution.\2\
---------------------------------------------------------------------------
    \2\ Currently, the SCTG and Mexico C4 have identified five of the 
six frequency pairs required for Phase I of the crossborder microwave 
project. The latest frequencies submitted by Mexico C4 for the Agua 
Prieta to Douglas microwave link are currently under consideration by 
the NTIA. The frequencies will be in the 7 GHz to 8 GHz band.
---------------------------------------------------------------------------
    The SCTG will be recommending the establishment of a protocol by 
the High Level Consultative Commission on Telecommunications (HLCC) to 
ensure the interference protection of the frequencies. Additionally, 
the protocol will establish a users group to address the development of 
standard operating procedures and other operational issues once the 
long-term solution is no longer under the purview of the High Level 
Consultative Commission on Telecommunications. The SCTG will also 
determine whether communications over the solution will occur in 
English or Spanish along the southern border.

The 2010 Olympics Task Force Security Subcommittee, Communications 
        Interoperable Working Group
    The 2010 Olympics Task Force Security Subcommittee, the 
Communications Interoperable Working Group (CIWG) is developing an 
integrated interoperability plan in preparation for the Olympics in 
Vancouver. The Interoperability Continuum \3\ is being used as a basis 
to develop a robust interoperability solution. Efforts to date have 
involved the identification of existing communications assets and 
required participants. The next steps in the process include the 
development of interoperable protocols, policies, procedures, and 
tactical communication strategies. The CIWG will also develop a multi-
year training and exercise plan and schedule. Spectrum issues are also 
anticipated to be a challenge in the implementation of the 
International Border Community Interoperable Communications 
Demonstration Project and the 2010 Olympics CIWG. The participating 
agencies operate in a wide range of disparate frequency bands.
---------------------------------------------------------------------------
    \3\ The Interoperability Continuum is a tool devised to measure 
progress in public safety interoperability using five elements: 
Governance, Standard Operating Procedures, Technology, Training and 
Exercises, and Usage.
---------------------------------------------------------------------------
    Geographic and demographic factors will come into play during the 
2010 Olympics. The influx in the number of tourists and public safety 
officials has the potential to stress existing communications systems. 
OEC sees this as a good opportunity to identify cross-border 
interoperability solutions to be used for a large-scale international 
event.

The Federal Partnership for Interoperable Communications Southwest 
        Border Communications Working Group
    The Federal Partnership for Interoperable Communications (FPIC) 
Southwest Border Communications Working Group is a domestic initiative 
intended to effectively use the region's scarce critical resources to 
identify and leverage interoperability opportunities among Federal, 
State, and local agencies implementing wireless infrastructure along 
the United States-Mexico border and to help programs succeed in meeting 
end-users' needs.
    Additionally, this group is working to ensure coordination among 
public safety agencies on the U.S. side of the border. While this 
effort does not directly create cross-border interoperability, it works 
to establish domestic interoperability in a critical region as a 
precursor to cross-border interoperability.

                               CONCLUSION

    Improving interoperability on our northern and southern borders is 
of paramount importance to the safety and security of our Nation. OEC 
will continue to serve as the focal point for the coordination of 
robust cross-border interoperability solutions that address user needs 
and policy requirements of all three countries. Through FPIC and other 
forums, OEC will continue to cultivate relationships with Canadian, 
Mexican, and American users and regulatory agencies across all levels 
of government to better identify and address barriers to 
interoperability.
    I appreciate this opportunity to discuss OEC activities look 
forward to working with this subcommittee to help meet the emergency 
communications needs of our Nation.

    Mr. Cuellar. Director, I say thank you again for your 
testimony. At this time I now recognize Chief Landin to 
summarize a statement for 5 minutes.

     STATEMENT OF STEVE E. LANDIN, DEPUTY CHIEF, EMERGENCY 
             MANAGEMENT COORDINATOR, LAREDO, TEXAS

    Mr. Landin. Chairman Cuellar, Ranking Member Dent and 
Members of the subcommittee on Emergency Communications, 
Preparedness and Response. Good morning. I'm Steve Landin and 
I've been a proud member of the Laredo Fire Department since 
1990. The Laredo Fire Department is a 348-uniform personnel 
department. Like my father before me, my professional career 
has been as a first responder on the border, having worked as a 
firefighter and sheriff's deputy and now as the acting 
assistant fire chief and current emergency management 
coordinator.
    Before I begin my formal testimony, I would like to take a 
moment on behalf of my fellow border first responders in Laredo 
to thank Chairman Cuellar and this committee for the focus you 
have brought to the challenges we face. Chairman Cuellar sat 
down with Laredo public safety leaders to craft a U.S.-Mexico 
border public safety and public health response paper. The 
conclusion of that paper, a copy of which is attached to my 
testimony, is that there is a need for a Federal and local 
partnership. While I was not part of the committee that 
authored the paper, I do endorse the content.
    On the border, because we are often so isolated from any 
surrounding communities on the U.S. side, we understand better 
than most that we are on our own to address threats, not only 
to the people, property and economy of Laredo, but increasingly 
to the United States. For instance, while my colleagues in New 
York City or the District of Columbia may rely upon joint 
assistance programs which are surrounding communities in times 
of challenge, in Laredo, are nearest U.S. support is over an 
hour's drive away. Despite Nuevo Laredo, a city of 600,000, 
being just across the river and while the Federal agents 
manning the border points have point responsibility for 
security, Laredo does bear the burden with respect to 
protection of life, health and property.
    While the Chairman is well aware of Los Dos Laredos or the 
two Laredos and the role that we play on the border, let me 
take a moment to share some insights about my community with 
the subcommittee and outlining Laredo's role on the border. I 
am also seeking to answer the question that many of you may 
have. Why should Federal resources be used to support 
inoperable communications that are typically provided by every 
local government?
    Laredo is at the center of the primary trade route 
connecting Canada to the United States and Mexico. We are the 
Gateway to Mexico's burgeoning industrial complex. The two 
Laredos are actually one city divided by only a river. Laredo 
became the first official port of entry on the U.S.-Mexico 
border in 1851. In fact, the United States Consulate in Nuevo 
Laredo, Mexico is America's oldest continually active 
diplomatic post established in 1872. Today the Laredo customs 
district handles more trade than the land ports of southern 
California, Arizona, New Mexico and west Texas combined.
    The city of Laredo provides its local citizens and the 
Nation a comprehensive public safety and public health response 
to threats at the border. Laredo provides the largest 
communications infrastructure in the region. A unified approach 
to police, fire and public health first responders to ensure 
safety, security and public health disease control and 
preparedness. We provide training, planning and support for 
disease control and prevention through its public health 
authority, and we support for our Federal and State partners in 
responding to the public safety hazard challenges such as 
primary response to river rescue and recovery as well as 
response to bomb threats at our international bridges to 
conduct searches for weapons of mass destruction.
    Despite Laredo providing these national defense services, 
Laredo is not a direct beneficiary of any of the new DHS 
programs because Federal funding for Homeland Security has been 
limited to U.S. census data. Funding formulas must be changed 
to address threat levels and services provided to the Nation by 
border communities. Laredo is providing these services. It is 
time that the Nation provides Laredo with a fair share of the 
resources needed for these efforts.
    As first responders on the U.S. border we face a myriad of 
challenges in delivering emergency services. An example of this 
is our current need of enhancing our regional communications 
operation. Although our region has joined forces--as first 
responders on the U.S. border we face challenges and although 
our region has joined forces for this important task, we have a 
long road ahead of us. Our geographical location dictates that 
we must consider two important aspects of our overall 
preparedness and strategy. We must ensure that the regional 
communications is adequate and functional, and we must ensure 
that we can do the same to our current Mexican counterparts.
    We do provide some Federal solutions. Regional radio 
communication infrastructure upgrades, specifically the 
addition of radio towers in our region. Regional upgrades to 
the 800 megahertz frequency, continued trading for local or 
regional interoperability and cross-border communication 
capabilities to include training and equipment. This should 
include the sharing of the spectrum with our first responder 
colleagues and the ability to communicate several miles into 
Mexico.
    Training and equipment for first responder HAM radio 
operators and UASI should be changed to make proximity to the 
board a threat criteria and funding should be available for 
people and equipment required to meet the threats of the 
Nation's health and safety. Laredo provides more public health 
first responders and public safety responders on the border 
than the Federal Government, yet it is not eligible for direct 
funding.
    The Port Security initiative must be modified to include 
all major ports, not specifically water ports. The city of 
Laredo is the Nation's largest inland port on the U.S.-Mexican 
border, yet it is not eligible for port security funding. 
International bridges should be included in the protective 
class of infrastructure of national significance. Their losses 
would have a major impact on the Nation's economy. Creative 
border security initiatives such as the Laredo River Vega 
project that enhances national security by clearing lines of 
site and building river retaining walls with the result being 
an integrated national security project should being supported.
    All other DHS and Department of Justice programs which fund 
first responders such as the SAFER grant and the COPS grant 
must be fully funded and the role the community plays in 
supporting national security must be included in the funding 
criteria.
    In conclusion, Laredo is the only southern border city 
strategically positioned at the convergence of all land 
transportation systems. While this location results in Laredo 
being our Nation's largest inland port on the southern border, 
it also means that Laredo's public safety and health programs 
are heavily burdened with a flow of such commerce. Laredo is a 
shipping and receiving dock for the urban centers and seaports 
in your States. There are studies and statistics of the amount 
of cargo that flows or returns to your States in Mississippi, 
Washington, New York, Pennsylvania, Indiana and the Carolinas 
and beyond.
    Laredo and other border communities strive for healthy and 
safe communities. Sometimes we are asked to bear too large a 
burden in keeping our Nation healthy and safe. We look to this 
committee to assist us obtain the resources we need to meet the 
challenges that we face on a daily basis. Thank you, and I look 
forward to any questions.
    [The statement of Mr. Landin follows:]

                 Prepared Statement of Steve E. Landin
                           February 19, 2008

                              INTRODUCTION

    Chairman Cuellar, Ranking Member Dent and Members of the 
Subcommittee on Emergency Communications, Preparedness, and Response--
good morning. I am Steve E. Landin and have been a proud member of the 
Laredo Fire Department since 1990. The Laredo Fire Department is a 
three hundred and forty-eight (348) uniformed personnel department. 
Like my father before me, my professional career has been as a first 
responder on the border, having worked as a firefighter and sheriff's 
deputy and now as the Acting Assistant Fire Chief and current Emergency 
Management Coordinator.

                     LEADERSHIP OF CHAIRMAN CUELLAR

    Before I begin my formal testimony, I would like to take a moment 
on behalf of my fellow border first responders in Laredo to thank 
Chairman Cuellar and this committee for the focus you have brought to 
the challenges we face. Chairman Cuellar sat down with Laredo's public 
safety leaders to craft a U.S.-Mexico Border Public Safety and Public 
Health Response paper. The conclusion of that paper, a copy of which is 
attached to my testimony, is there is a need for a Federal-local 
partnership. While I was not a part of the committee that authored that 
paper, I endorse the content.

                    ISOLATION & COOPERATIVE EFFORTS

    On the border, because we are so often so isolated from any 
surrounding communities on the U.S. side, we understand better than 
most that we are on our own to address threats not only to the people, 
property and economy of Laredo, but increasingly to the United States. 
For instance, while my colleagues in New York City or the District of 
Columbia may rely upon joint assistance programs with surrounding 
communities in times of challenge, in Laredo, ``our nearest U.S. 
support'' is over an hour's drive away, despite Nuevo Laredo, a city of 
600,000 being just across the river. And while the Federal agents 
manning the border posts have point responsibility for security, Laredo 
bears the burden with respect to protection of life, health and 
property.

           LOS DOS LAREDOS AND THE ROLE WE PLAY ON THE BORDER

    While the Chairman is well aware of ``Los Dos Laredos,'' or ``The 2 
Laredos'' and the role we play on the border, let me take a moment to 
share some insights about my community with the subcommittee. In 
outlining Laredo's role on the border, I am also seeking to answer the 
question that many of you may have--why should Federal resources be 
used to support interoperable communications that are typically 
provided by every local government?

A. Largest and Oldest Southern Inland Port
    Laredo is at the center of the primary trade route connecting 
Canada, the United States and Mexico. We are the gateway to Mexico's 
burgeoning industrial complex. The two Laredos are actually one city, 
divided only by a river. Laredo became the first ``official'' Port of 
Entry on the U.S.-Mexico border in 1851. (In fact, the United States 
Consulate in Nuevo Laredo, Mexico is America's oldest continuously 
active diplomatic post, established in 1872.) Today, the Laredo Customs 
District handles more trade than the land ports of Southern California, 
Arizona, New Mexico and West Texas combined.

B. Services We Provide Laredo and Nation
    The city of Laredo provides its local citizens and the Nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
  <bullet> The largest communication infrastructure in the region.
  <bullet> A unified approach of police, fire and public health first 
        responders to ensure safety, security and public health disease 
        control and preparedness.
  <bullet> Training, planning and support for disease control and 
        prevention through its public health authority.
  <bullet> Support for our Federal and State partners in responding to 
        the public safety hazard challenges such as primary response 
        for river rescue and recovery as well as response to bomb 
        threats at our international bridges to conduct searches for 
        weapons of mass destruction.
    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because Federal 
funding for homeland security has been limited to U.S. census data. 
Funding formulas must be changed to address threat levels and services 
provided to the Nation by border communities. Laredo is providing the 
services. It is time that the Nation provides Laredo with a fair share 
of the resources needed for these efforts.

                               CHALLENGE

    As first responders on the U.S. border we face a myriad of 
challenges in delivering emergency services. An example of this is our 
current need of enhancing our regional communications operation. 
Although our region has joined forces for this important task, we have 
a long road ahead.
    Our geographical location dictates that we must consider two 
important aspects of our overall preparedness and response strategy:
  <bullet> First, we must ensure that our regional communications 
        system is adequate and functional as well as possess the 
        capability of communicating with other jurisdictions during an 
        emergency. The need for this was evident during the recent 
        Cotulla, TX wild land fires that consumed more than 17,000 
        acres and destroyed 20 homes. Several fire departments, 
        including our own, were on the fire ground and experienced the 
        difficulties that accompany a lack of proper communications.
  <bullet> Second, we must ensure that we can do the same with our 
        Mexican counterparts. There are emergency situations that know 
        no boundaries. It is crucial that we are able to maintain radio 
        contact among responding personnel, as well as with our 
        dispatch, when responding to emergencies in Mexico.

                               SOLUTIONS

    Federal funding for homeland security and public health response 
initiatives must compensate local communities that are providing 
protection to the Nation. The easiest way to accomplish this goal is to 
create a border category in all funding formulas.
    There are also specific steps that the Congress can take to address 
these challenges:
  <bullet> Regional Radio Communications Infrastructure; specifically 
        the addition of radio towers in our region for enhanced 
        communications capability, as well as the necessary support 
        resources.
  <bullet> Regional upgrades to 800 MHz frequency radio systems.
  <bullet> Continued training for local and regional interoperability 
        radio operations.
  <bullet> Cross Border communications capabilities to include training 
        and equipment. This should include the sharing of spectrum with 
        our first responder colleagues and the ability to communicate 
        several miles into Mexico.
  <bullet> Training and equipping for first responder HAM radios.
  <bullet> UASI should be changed to make proximity to the border a 
        threat criterion and funding should be available for people and 
        equipment required to meet threats to the Nation's health and 
        safety. Laredo provides more public health responders and 
        public safety responders on the border than the Federal 
        Government, yet it is not eligible for direct funding.
  <bullet> The Port Security initiative must be modified to include all 
        major ports, not simply water ports. The city of Laredo is the 
        Nation's largest inland port on the U.S.-Mexico border, yet it 
        is not eligible for port security funding.
  <bullet> International Bridges should be included in the protected 
        class of infrastructure of national significance. Their losses 
        would have a major impact on the Nation's economy.
  <bullet> Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
  <bullet> All other DHS and Department of Justice programs which fund 
        first responders (i.e. SAFER, COPS) must be fully funded and 
        the role a community plays in supporting national security must 
        be included in the funding criteria.

                               CONCLUSION

    Laredo is the only southern border city strategically positioned at 
the convergence of all land transportation systems. While this location 
results in Laredo being our Nation's largest inland port on the 
southern border, it also means that Laredo's public safety and health 
programs are heavily burdened with the flow of such commerce. Laredo is 
the shipping and receiving dock for the urban centers and seaports in 
your States. There are statistics of the amount of cargo that flows 
from, or returns to, your States of Mississippi, Washington, New York, 
Pennsylvania, Indiana, the Carolinas, Alabama and beyond. Laredo and 
other border communities strive for healthy and safe communities. 
Sometimes we are asked to bear too large a burden in keeping our Nation 
healthy and safe. We look to this committee to assist us to obtain the 
resources we need to meet that challenge.
    Thank you and I look forward to your questions.

Appendix A.--Supplemental Testimony of Hector Gonzalez, M.D., Director 
                       of Health, City of Laredo

                            1. INTRODUCTION

    Good morning Chairman Cuellar and Members of the Subcommittee on 
Emergency Communication, Preparedness and Response. My name is Doctor 
Hector F. Gonzalez; I am the Director of Health for the city of Laredo. 
My colleague Chief Steve Landin, Acting Assistant Fire Chief for the 
city of Laredo Fire Department is addressing you today in person to 
provide testimony on our unique needs based issues as first responders 
and emergency care on the border. I am submitting this addenda to the 
Chief's testimony. I have every confidence that Chief Landin can 
address any immediate questions you may have on public health threats 
and our unified response in Laredo, a Texas-Mexico Border City.
    I have provided public health care for over 30 years. In contrast 
to private medicine, public health keeps our community disease-free and 
promotes wellness and prevention. We want to keep people well.

                      2. CHALLENGES ON THE BORDER

    Nowhere are these activities more vibrant and yet challenging than 
on the Texas-Mexico Border.
  <bullet> Infectious diseases and co-morbidities are critical. Laredo 
        has one of highest rates of Tuberculosis in Texas.
  <bullet> There is a critical lack of access to health care (over 50 
        percent of our citizens are un/underinsured).
  <bullet> There is a critical lack of access to health care 
        professionals. We are a HRSA health professions shortage area 
        and we lack appropriate equipment for services and adequate 
        communication which all add to the challenges.
    Yet our resiliency has assisted border communities like Laredo to 
flourish despite the odds. From El Paso to Brownsville, Texas first 
responder responsibility includes addressing infectious and all hazards 
threats.

                  3. THE NEW FIRST RESPONDER PARADIGM

    After September 11, the first responder paradigm changed. This is 
especially so after the anthrax attacks. No longer do we view first 
responder and preparedness in the same way. Nowhere is this more 
evident than in Laredo where the Chief of Police, Fire Chiefs and I 
work intimately close to respond to all hazards: biological, chemical 
and radiological. Yet Laredo has always worked in this manner, 
maximizing, regionalizing and being innovative because we have always 
recognized that it is our community but everyone's border to protect. 
Most importantly however, resources have always been insufficient and 
therefore we created our own response expertise. We respond to all 
hazards to contain disease, prevent the spread and provide immediate 
care of individuals affected as well to protect the public. For us, it 
is routine to respond locally, regionally and internationally. We are 
the State and Federal responders, as there is no one else to respond, 
and we recognized this a long time ago. On the border, issues may be 
international in scope, but the response to the threat will always be 
local! This is why we developed our own team of experts especially for 
an all-hazards and public health response.

              4. LOCAL RESPONSES TO INTERNATIONAL THREATS

    Let me share a few examples of interventions.
(1) Severe Acute Respiratory Syndrome (SARS)
    During the worldwide Severe Acute Respiratory Syndrome (SARS) 
threat, there were five mainland Chinese nationals traveling through 
Mexico City and entering the United States illegally through the Freer, 
Texas border post. The Customs and Border Patrol called us in Laredo to 
inform us that two of Chinese nationals had a fever. (Please note, it 
was not a Laredo Border crossing but individuals in Freer, Texas, an 
hour's drive.) We respond and conduct a rapid and immediate thorough 
investigation, instituting quarantine and isolation procedures for the 
prevention and protection of all. This effort included a response to 
protect over 30 Federal agents, 25 Mexican and Central Americans 
(caught with the Chinese) as well the well-being of all Laredoans. We 
also had to deal with Federal and State health and immigration 
authorities from both countries. The city of Laredo Health Department 
(CLHD) made it our immediate responsibility to assure the protection of 
all and the disease containment to prevent a potential spread of a 
highly communicable disease that could have impacted the nation. This 
was the responsibility of Federal authorities but we are the only ones 
able to respond. While we have a Centers for Disease Control and 
Prevention (CDC) quarantine station in El Paso that covers New Mexico 
and Texas, they only have 3 persons. We work wonderfully in partnership 
with them but in the end we provide all of the local investigations and 
response, training and prevention efforts not only for Laredo but for 
the region as we care for four other counties as well. Both Chief Sosa 
and our staff are continuously responding to all hazards including 
assuring the appropriate storage of Cobalt 60, assuring the safety 
management of illegally discarded hazardous materials and the safety of 
food and water supplies.
(2) TB
    Finally I am sure all of you have heard about the quarantine and 
isolation of the person with TB with XDR who traveled worldwide. The 
whole Nation is concerned and I understand there are hearings on this 
matter. Well this is an everyday threat for us on the border. We don't 
need any exotic or biological weaponized threat; there are everyday 
communicable disease threats to the public that are equally lethal.
    One of our cases in 2006 involved two family members (one in Laredo 
and one in Nuevo Laredo Mexico). We immediately intervened 
(internationally) since members lived on both sides of the U.S.-Mexico 
border to get all family members tested, confirmed, treated and 
followed. When we finished the investigation, we had tested over 40 
family members and three were positive. These were immediately 
confirmed, treated and followed as active TB which needs treatment for 
at least 6 months with multiple medications. It is imperative to assure 
compliance to avoid drug resistance which is a problem today and in 
some cases (as in the case all of you have heard about) there is a rare 
extremely multi-drug resistant strain. In our situation, the three 
cases were family members in San Antonio (150 miles away) Dallas (over 
400 miles away) and in Chicago. If we did not have the surveillance 
detection system to intervene quickly, test, confirm, treat and follow 
these cases, they would have gone undetected putting hundreds if not 
thousands of people at risk.
    Yet we have faced a 30 percent reduction in funds over the last 2 
years affecting our public health response infrastructure. Today we do 
not have adequate infection control response staff, equipment for 
services with an isolation and response vehicle and appropriate 
communication systems is still lacking. Our staff responds with limited 
resources and equipment and in their own vehicles which are not 
appropriate for our terrain and protection against potentially 
communicable diseases and hazardous exposure. This is not an 
appropriate response. If our staff fall and fail to protect and prevent 
not only is Laredo at risk but the State and Nation as well.
    We ask that you consider providing adequate resources for services, 
staff and equipment not based on formulas and standards that are used 
for the rest of the Nation. Our United States-Mexico Border and in 
particular the Texas-Mexico Border, specially Laredo as the major 
inland port of entry, must have adequate resources to respond based on 
our unique response responsibilities to all threats. We must have the 
appropriate staff, equipment, vehicles to respond as well the proper 
tools to isolate and quarantine, after all what happens in Laredo 
affects the entire Nation. If we protect and respond appropriately in 
Laredo, we protect the public's health and well-being of the country.

                             5. CONCLUSION

    The United States is under a constant threat of an intentional or 
unintentional medical or biological attack. In Laredo we say: ``When 
Nuevo Laredo, Mexico coughs, Laredo gets the cold.'' Disease does not 
respect a border, a wall or even the most professional of custom and 
border patrol agents.
    When you think of the potential public health threats that can 
cause epidemics, contaminate our water or food supply, there is no area 
more vulnerable than the U.S.-Mexico border. In Laredo, we are proud to 
provide a first line of defense for our community and the Nation. We 
just need help with the resources to meet these demands.
    I want to thank you for allowing me to provide this written 
testimony. I know Chief Sosa is providing immediate answers to any of 
your questions but I will glad to answer any additional questions you 
may have as well.

    Appendix B.--U.S.-Mexico Border Public Safety and Public Health 
           Response; The Need for a Federal-Local Partnership

                               BACKGROUND

    The city of Laredo provides its local citizens and the Nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
  <bullet> A unified approach of police, fire and public health first 
        responders to ensure safety, security and public health disease 
        control and preparedness.
  <bullet> Training, planning and support for Radio Interoperability 
        issues.
  <bullet> Support for our Federal and State partners in responding 
        public safety hazards challenges.

                               CHALLENGE

    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because Federal 
funding for homeland security has been limited to U.S. census data. 
Funding formulas must be changed to address threat levels and services 
provided to the Nation. Laredo is providing the services. It is time 
that the Nation provides Laredo with a fair share of the resources 
needed for these efforts.

                               SOLUTIONS

    Federal funding for homeland security, radio interoperability 
projects and public health response initiatives must compensate local 
communities that are providing protection to the Nation. The easiest 
way to accomplish this goal is to create a border category in all 
funding formulas.
    There are also specific steps that the Congress can take to address 
these challenges:
  <bullet> Reinforcing regional radio communications infrastructure; 
        specifically the addition of radio towers in our region for 
        enhanced communications capability, as well as the necessary 
        support resources.
  <bullet> Continued training for local and regional interoperability 
        radio operations
  <bullet> Cross-border communications capabilities to include training 
        and equipment. This should include the sharing of spectrum with 
        our first responder colleagues and the ability to communicate 
        several miles into Mexico.
  <bullet> Regional upgrades to 800 MHz frequency radio systems.
  <bullet> Training and equipping for first responder HAM radios.
  <bullet> UASI should be changed to make proximity to the border a 
        threat criterion and funding should be available for people and 
        equipment required to meet threats to the Nation's health and 
        safety. Laredo provides more public health responders and 
        public safety responders on the border than the Federal 
        Government, yet it is not eligible for direct funding.
  <bullet> The Port Security initiative must be modified to include all 
        major ports, not simply water ports. The city of Laredo is the 
        Nation's largest inland port on the U.S.-Mexico border, yet it 
        is not eligible for port security funding.
  <bullet> International bridges should be included in the protected 
        class of infrastructure of national significance. Their losses 
        would have a major impact on the Nation's economy.
  <bullet> Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
  <bullet> All other DHS and Department of Justice programs which fund 
        first responders (i.e. SAFER, COPS) must be fully funded and 
        the role a community plays in supporting national security must 
        be included in the funding criteria.

    Appendix C.--Detailed Statement of Chief Landin on the State of 
         Interoperability Communications Along the Texas Border

                               BACKGROUND

    Border Security and safety is an essential component of our 
Nation's homeland security. It is a duty that we gladly and proudly 
accept each time we report for our shifts. Although our task is 
challenging, we realize its importance, for we as first responders, are 
the front line of defense for our Nation against intentional or 
unintentional threats. A sobering reality is that the number of threats 
in this post-9/11 world has increased along the U.S.-Mexico border and so 
has the number of incidents that can potentially escalate into major 
emergencies.
    The county of Webb, in which Laredo is located, is the sixth-
largest county of the 254 counties in the State of Texas. It covers 
3,360 sq. miles or 2,139,217 acres. As the second-fastest growing city 
in the Nation, Laredo has outgrown its boundaries. The city of Laredo, 
thru a contractual agreement, provides emergency services to all of 
Webb County. The county of Webb has 4 cities that the Laredo Fire 
Department services: Mirando City, Bruni, Oilton, and Aguilares. The 
Laredo metropolitan area posted the largest gain in population of any 
other city along the Texas border. Laredo has an approximate population 
of 250,000 residents and its sister city, Nuevo Laredo, Mexico, has a 
population of 600,000 residents.
    While all local governments have security issues, border 
communities have special challenges. Consider Laredo, Texas, the 
largest land port in the United States for people and goods arriving 
from Central and South America. Every day, 13,000 trucks bring parts 
and supplies across the border, and 30,000 people cross its four 
bridges, a process that takes 1\1/2\ hours on a normal day.
    Our frontier community is a booming one, having doubled its 
population in the past 10 years, from 100,000 to more than 200,000. 
Nuevo Laredo, our sister city across the border in Mexico, has a 
population of 600,000. During a serious emergency, the closest support 
from any U.S. locality, State government, or Federal Government agency 
is 150 miles away. An existing bi-national aid agreement between Laredo 
and Nuevo Laredo includes an understanding of hazardous-materials 
responses, bomb threats and SWAT tactics among other public safety 
disciplines. Historically, the aid provided has been to assist Nuevo 
Laredo emergency agencies to properly mitigate threat in our sister 
city. Also we experience an average of three or four bomb threats each 
week at our international bridges.

                               CHALLENGES

    As first responders on the U.S. border we face a myriad of 
challenges in delivering emergency services. An example of this is our 
current need of enhancing our regional communications operation. 
Although our region has joined forces for this important task, we have 
a long road ahead.
    Our geographical location dictates that we must consider two 
important aspects of our overall preparedness and response strategy:
  <bullet> First, we must ensure that our regional communications 
        system is adequate and functional as well as posses the 
        capability of communicating with other jurisdictions during an 
        emergency. The need for this was evident during the recent 
        Cotulla, TX wildland fires that consumed more than 17,000 acres 
        and destroyed 20 homes. Several fire departments, including our 
        own, were on the fire ground and experienced the difficulties 
        that accompany a lack of proper communications.
  <bullet> Second, we must ensure that we can do the same with our 
        Mexican counterparts. There are emergency situations that know 
        no boundaries. It is crucial that we are able to maintain radio 
        contact among responding personnel, as well as with our 
        dispatch, when responding to emergencies in Mexico.
    In outlining Laredo's role on the border, it is important to answer 
the question that many of you have: why should Federal resources be 
used to support what are typical services provided by every local 
government as well as other special services that may not be typical to 
other jurisdictions? Listed below are two reasons why:

A. International
  <bullet> Largest and Oldest Southern Inland Port
    Laredo is at the center of the primary trade route connecting 
Canada, the United States and Mexico. We are the gateway to Mexico's 
growing industrial complex. Los Dos Laredos (the Two Laredos) are 
actually one city, divided only by a river. Laredo became the first 
``official'' Port of Entry on the U.S.-Mexico border in 1851. (In fact, 
the United States Consulate in Nuevo Laredo, Mexico is America's oldest 
continuously active diplomatic post, established in 1872.) Today, the 
Laredo Customs District handles more trade than the ports of Southern 
California, Arizona, New Mexico and West Texas combined.

B. Domestic
    The city of Laredo is a hub for emergency response with assets and 
expertise to manage emergencies in a 150-mile radius. The city has 
executed mutual aid agreements with several jurisdictions to offer aid 
in the event they should be needed. Local resources could be quickly 
exhausted should there be a need to respond to a major emergency. As a 
border community we face a wide variety of threats given our strategic 
location and as such we must recognize that emergencies in our sister 
city could lead to a potential emergency in ours.
            Structure Fires
    With 60 million square feet of warehouse space to protect on our 
side of the border, we must consider the vast amount of warehouse space 
to the south. The limited means of our counterparts puts our community 
at risk should a fire in their commercial/warehouse districts become 
uncontrollable. An existing bi-national agreement with Nuevo Laredo 
would require our fire department to render aid.
            EMS
    Laredo Fire Department Emergency Medical Services (EMS) responded 
to close to 17,000 calls in 2006. Many of these were responses to our 
international bridges to render aid to patients coming in from Nuevo 
Laredo. The patients arrive to our bridges via personal vehicles or by 
foot. Additionally, many attempts by foreign nationals to cross our 
borders illegally generate a response by our EMS system to render aid 
in the hostile terrain that surrounds our community. These patients 
become dehydrated or suffer trauma while attempting to cross via rail 
car or by vehicles transporting illegal aliens that are involved in 
accidents.
            Mass Casualty Incidents
    In addition to offering protection to our community from mass 
casualty incidents, we consider other factors that increase the 
potential for these types of incidents. A major corridor named IH-35, 
passes through our city and so does a tremendous amount of traffic. 
This includes passenger buses as well multi-occupant vehicles. This 
highway is also a major thoroughfare for the transportation of illegal 
aliens. Many times while chased by law enforcement, these vehicles 
become involved in accidents with as many as 50 people. Recently, the 
fire department was called to assist a neighboring border county, 
Zapata, when a passenger van transporting 50 aliens rolled over killing 
one. This incident placed a significant burden on our resources as 
several ambulances were dispatched to assist, render aid and transport 
the injured back to local hospitals.
            HAZ-MAT Incidents
    Laredo is the main NAFTA corridor for the United States and 
correspondingly in Texas for international trade. Laredo has four 
international bridges and is currently in the process of applying for a 
Presidential Permit to build a fifth international bridge. Laredo 
carries 50 percent of all NAFTA-related trade. It is further estimated 
that 50 percent of the trade that crosses through Laredo is hazardous 
material. The United States, Mexico, Central and South America's 
economies depend on secure bridges (the artery through which life flows 
for the business-trade sector). Terrorist actions or any disruptive 
situations would be detrimental to local, State, national and 
international economies. According to Laredo Development Foundation's 
2001 data, Laredo is the No. 1 inland port in the United States with 
2,772,537 annual tractor-trailer crossings and an additional 350,620 
rail car crossings through our single railroad bridge. Almost half of 
the cargo that travels through the Laredo Corridor by land and rail 
carry hazardous materials. The Laredo Airport, a former U.S. Air Force 
Base, had 226 million pounds of freight land in 2001.
    The situation our community faces today is the increasing volume of 
commercial traffic with hazardous cargo passing through our city via 
road and rail. In addition, we are experiencing an expansion of 
commercial warehousing that store the hazardous materials transported 
by commercial traffic. This reflects an increase for calls our 
department makes to hazmat incidents.
    Of note are recent emergency calls that posed a threat to our 
community and contained all of the necessary elements to escalate to a 
major disaster.
  <bullet> A tractor-trailer overturned on Hwy 359 spilling a 
        significant amount of highly toxic sodium hydroxide. The 
        highway was closed for several hours. Prevailing winds 
        threatened to carry fumes toward the city.
  <bullet> A tractor-trailer was found to be leaking an unknown 
        chemical. The trailer contained several pallets of AG Oxycom, 
        an oxidizer corrosive that causes irritation of the respiratory 
        track when inhaled.
  <bullet> A train derailment caused several boxcars containing 
        petroleum alkalate and benzene 10 percent to burn exposing one 
        boxcar with tetrachchloroethylene. Residents in the immediate 
        area were evacuated. Wind conditions threatened to carry fumes 
        toward a populated area.
    There is also the challenge of rail yards in the midst of a heavily 
populated area of town. These boxcars transport a huge amount of cargo 
throughout the day at the risk of derailment.
    All these numbers translate into a single conclusion: Laredo's Fire 
Department must be prepared to address a hazmat challenge due to the 
volume of Hazmat cargo, commerce, and tourism present on both sides of 
the border. Data compiled from the U.S. Department of Commerce 
indicates that in 2004, the total share of U.S.-Mexico trade passing 
through the port of Laredo was 58.9 percent. All other ports on the 
U.S.-Mexico Border totaled only 41.1 percent. This commercial traffic 
has only increased over the past decade as more commerce is utilizing 
the Port of Laredo's strategic location. The significant increase has 
offered many opportunities for the potential of a major hazardous 
material incident that would affect the lives of many families on both 
sides of the border as well as those that reside in the surrounding 
communities. Additionally, Laredo has over 60 million square feet of 
warehouse space and at least a quarter of that space contains hazardous 
materials and is highly vulnerable to Terrorism and Bio-Chemical 
Terrorism.
            River Rescue and Body Recoveries
    The Laredo Fire Department is the primary responder to river 
rescues and body recoveries along the Rio Grande. As the increase in 
attempts to cross our border illegally so do the number of rescues and 
recovery of drowning victims. We lack the equipment and training to 
safely conduct these services on international waters.
            Bomb Threat at Bridges
    911 Dispatch receives on average 3 bomb threats a week to our 
international bridges alone. The Fire Department responds to these bomb 
threats and conducts a search for any suspicious packages and explosive 
devices without any protective equipment or ordinance training.
    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because Federal 
funding for homeland security has been limited to U.S. census data. 
Funding formulas must be changed to address threat levels and services 
provided to the Nation by border communities. Laredo is providing the 
services. It is time that the Nation provides Laredo with a fair share 
of the resources needed for these efforts. Additionally, we would like 
to mention some of the other challenges we face along the border:
Additional Services We Provide Laredo and the Nation
    The city of Laredo provides its local citizens and the Nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
  <bullet> The largest first responder communication infrastructure in 
        the region.
  <bullet> A unified approach of police, fire and public health first 
        responders to ensure safety, security and public health disease 
        control and preparedness.
  <bullet> Training, planning and support for radio interoperability.
  <bullet> Support for our Federal and State partners in responding 
        public safety hazards challenges such as primary response for 
        river rescue and recovery as well as response to bomb threats 
        at our international bridges to conduct searches for weapons of 
        mass destruction and emergency response to the region when 
        needed.

                               SOLUTIONS

    Homeland security is about the integration of a nation, everyone 
pledged to freedom's cause, everyone its protector, and everyone its 
beneficiary. It's about the integration of our national efforts, not 
one department or one organization, but everyone tasked with our 
Nation's protection. To accomplish this task, Federal funding for 
homeland security, radio interoperability projects and public health 
response initiatives must compensate local communities that are 
providing protection to the Nation. The easiest way to accomplish this 
goal is to create a border category in all funding formulas.
    There are also specific steps that the Congress can take to address 
these challenges:
  <bullet> Regional Radio Communications Infrastructure; specifically 
        the addition of radio towers in our region for enhanced 
        communications capability, as well as the necessary support 
        resources.
  <bullet> Continued training for local and regional interoperability 
        radio operations.
  <bullet> Cross-border communications capabilities to include training 
        and equipment. This should include the sharing of spectrum with 
        our first responder colleagues and the ability to communicate 
        several miles into Mexico.
  <bullet> Regional upgrades to 800 MHz frequency radio systems.
  <bullet> Training and equipping for first responder HAM radios.
  <bullet> UASI should be changed to make proximity to the border a 
        threat criterion and funding should be available for people and 
        equipment required to meet threats to the Nation's health and 
        safety. Laredo provides more public health responders and 
        public safety responders on the border than the Federal 
        Government, yet it is not eligible for direct funding.
  <bullet> The Port Security initiative must be modified to include all 
        major ports, not simply water ports. The city of Laredo is the 
        Nation's largest inland port on the U.S. Mexico border, yet it 
        is not eligible for port security funding.
  <bullet> International bridges should be included in the protected 
        class of infrastructure of national significance. Their losses 
        would have a major impact on the Nation's economy.
  <bullet> Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
  <bullet> All other DHS and Department of Justice programs which fund 
        first responders (i.e. SAFER, COPS) must be fully funded and 
        the role a community plays in supporting national security must 
        be included in the funding criteria.
    Additionally, we would like to respectfully submit the following 
points:
    (1) The city of Laredo has been a major contributor of resources to 
        create a regional mutual aid agreement. As the largest source 
        of assets and experience in our region, we are looked to in the 
        event of a significant emergency occurring in any of the 
        participating jurisdictions. Support and training for regional 
        preparedness is essential to our border communities.
    (2) Our city has invested heavily in the creation of a state-of-
        the-art fire and law enforcement training facility. This 
        facility has trained first responders from around the globe. 
        Students have trained here from different parts of Mexico, 
        Central and South America, Europe and Canada. Another benefit 
        to first responders from around this region is the close 
        proximity and accessibility to world class training. 
        Standardized training for public safety officials on both sides 
        of our border is essential for a uniformed response to an 
        emergency that would affect communities on the U.S.-Mexico 
        border.
    (3) We must be recognized as a hub for public safety and homeland 
        security for the region and for the front gate of our Nation. 
        Although we are the largest community in the region with public 
        safety assets, it is important to remember that we are the 
        closest entity for emergency response in 150 miles.
    (4) UASI should be changed to make proximity to the border a threat 
        criterion and funding should be available for people and 
        equipment required to meet threats to the Nation's health and 
        safety. Laredo provides more public health responders and 
        public safety responders on the border than the Federal 
        Government, yet it is not eligible for direct funding.
    (5) The Port Security initiative must be modified to include all 
        major ports, not simply water ports. The city of Laredo is the 
        Nation's largest inland port on the U.S.-Mexico border, yet it 
        is not eligible for port security funding.
    (6) International bridges should be included in the protected class 
        of infrastructure of national significance. Their losses would 
        have a major impact on the Nation's economy.
    (7) Creative border security initiatives such as Laredo's ``River 
        Vega'' project that enhance national security by clearing lines 
        of sight and building river retaining walls with the result 
        being an integrated national security project should be 
        supported.
    (8) All other DHS and Department of Justice programs which fund 
        first responders (i.e. SAFER, COPS) must be fully funded and 
        the role a community plays in supporting national security must 
        be included in the funding criteria.

                              CONCLUSIONS

    Laredo is the only U.S.-Mexico border city strategically positioned 
at the convergence of all land transportation systems. While this 
location results in Laredo being our Nation's largest inland port on 
the southern border, it also means that Laredo's public safety and 
health programs are heavily burdened with the flow of such commerce. 
Laredo is the shipping and receiving dock for the urban centers and 
seaports in your States. There are even statistics of the amount of 
cargo that flows from or returns to your States of Mississippi, 
Washington, New York, Pennsylvania, Indiana, the Carolinas, Alabama and 
beyond. Laredo and other border communities strive for healthy and safe 
communities. Sometimes we are asked to bear too large a burden in 
keeping our Nation healthy and safe. We look to this committee assist 
us obtain the resources we need to meet that challenge.
    Every day, we work to make our border and America more secure. 
Every day, the memories of September 11 inspire us to live our vision 
of preserving our freedoms, protecting America, enjoying our liberties, 
and securing the homeland

    Mr. Cuellar. Thank you, Mr. Landin, for your testimony. I 
now recognize Director Ledezma to summarize his statement for 5 
minutes. My understanding is [Spanish].

STATEMENT OF ALFONSO OLVERA LEDEZMA, DIRECTOR OF CITY SECURITY, 
                NUEVO LAREDO, TAMAULIPAS, MEXICO

    Mr. Ledezma. Good afternoon, Mr. Chairman. Members of the 
committee. The Mexican government in regards to international 
bridge operating procedures are carried out in case of a high-
risk contingencies by the Mexican Federal authorities. The 
Mexican bridges are Federal precincts. The State authorities, 
we do not have access to the international bridges, but the 
Mexican government as Director Ledezma.
    In case of municipal situations, high-risk contingencies 
are dealt by the Civil Safety Direction. It operates with 511 
police officers with 30 vehicles. The area determines the exact 
nature of the problem and decides an immediate response. 
Exchange of information of any crimes or criminals is vital to 
monitor the case of establishing of both cities. The 
communication between both nations is priority for the Mexican 
government and the U.S. Government.
    Our mutual safety, we have considered all bilateral 
programs and agreements and strategies for both nations as the 
case of bomb threats, toxic spills--sorry--on international 
bridges, includes if there's any bomb threats, Mexican 
government intervenes with protection of civil rights and, 
also, with the fire department. The fire department actually 
counts right now with two fire--two fire trucks that will 
automatically help international bridges in case of an 
emergency in the United States. Right now the only problem we 
have are the fire--the fire members right now. They are not--
they are all certified by the U.S. Government right now.
    In case of an emergency, the International Bridges I, II 
and the railroad bridge as well as the commercial international 
bridge will be automatically closed to any access international 
from the United States into Mexico or from Mexico into the 
United States. The civil protection--fire department operates 
with 114 elements, time response for each contingency point 
occurs, it's approximately about 7 minutes along the Rio Grande 
and the limits in between Mexico and the United States. The 
contingencies assists and offers as well as former specialized 
squads and task forces.
    Our fire department has, as I said, two fire engines, a 
model 2004 Freightliner, with a capacity of 1,260 gallons of 
water in case of general fires. We also have the boat rescue 
units that aid to the migrants from the Rio Grande. This also--
we also come with a HAZMAT certification program safety for 
chemicals discharges that attend contingencies of this nature. 
We are certified by the Laredo, Texas Department of Training.
    For better communication between both cities is to 
establish a rate of communication frequency for either--it 
could be phone-wise through Nextels. That's mostly what we use. 
Right now the federal government in case of a contingency 
automatically goes by the Secretary of Communicacion. After the 
Secretary of Communicacion counts the information, it goes to 
different Mexico corporations as Sedena. That would be the 
Mexican Army, [Spanish], that will be the Attorney General, 
[Spanish], the Federal police, [Spanish], the State attorney 
general and State police that will be [Spanish] as well as the 
Mexican authorities.
    [The statement of Mr. Ledezma follows:]

              Prepared Statement of Alfonso Olvera Ledezma
                           February 19, 2008

    Regarding all international bridge crossings, operating procedures 
that are carried out in case of high-risk contingencies by the Mexican 
Federal Authorities consider these areas as FEDERAL PRECINCTS.
    Notification of any contingency, by the U.S. Government to the 
Mexican authorities are received through the National Secretary of the 
Interior (Secretaria de Gobernacion) in Mexico, and it is then passed 
on to the Central of Control, Command and Compute (C4). It then 
properly identifies the incident and does the precise evaluation of the 
incident for all international crossings between Laredo, Texas and 
Nuevo Laredo, Tamaulipas.
    C4 is coordinated with different Mexican Corporations such as 
SEDENA (Mexican Army); PROCURADURIA GENERAL OF THE REPUBLICA, (Attorney 
General); POLICIA FEDERAL (Federal Police); PROCURADURIA GENERAL OF 
JUSTICE OF THE STATE OF TAMAULIPAS (State Attorney General); State of 
Tamaulipas Police (POLICIA MINISTERIAL); SEGURIDAD CIUDADANA (Civic 
Safety) and SEGURIDAD VIAL (Traffic Police).
    C4 classifies the incident and then accordingly assigns it to the 
corresponding authority. Mexican protocols establish that the first 
action is to secure national assets, as refineries, electrical 
stations, water supply stations, food banks, international crossings 
and State and national highways.
    The above-mentioned cases are the responsibility of the Mexican 
Federal Government.
    In case of Municipal situations, high-risk contingencies are dealt 
by the Civil Safety Direction, which operates with 511 policemen, with 
30 patrol cars and a 5-minute response time to any part of the city.
    This area determines the exact nature of the problem and decides an 
immediate response. Exchange of information of the crime and the 
criminals is vital to monitor the case and establish the search 
parameters.
    For our mutual safety we have to consider all bilateral programs 
and agreements that are strategic for both our nations, as are the 
cases of bomb threats, toxic spills on or near international bridges, 
as well as inside city limits. Other cases are reports to search for 
abducted or disappeared persons and river rescues.
    This concludes issues related to Civil Safety.
    Regarding traffic-related issues, the Traffic Department has 225 
officers and a response time of 4 to 5 minutes inside city limits. 
Other responsibilities are to control traffic fluency, privilege rapid 
movement of ambulances and public safety or emergency units to the 
place of the contingency.
    Municipal Traffic Authorities considers the following areas as a 
strategic perimeter for all cases and types of contingencies:
  <bullet> International Bridge I, (Bridge of the Americas). Closing of 
        Streets or Avenues in the following way: (1.) On the Street 15 
        of Junio and Avenue Guerrero: the total closing of the 
        structure of the International Bridge, to channel vehicle 
        circulation by the Avenue Guerrero to the South of the City. 
        (2.) On Matamoros Street and 15 of Junio: to provide traffic 
        fluency on Guerrero Avenue to the South of the City. (3.) On 
        Street 15 of Junio and Juarez to give traffic fluency to 
        Guerrero Avenue to the South of the City. (4.) On the Street 15 
        of Junio and Obregon to provide traffic fluency on Guerrero 
        Avenue to the South of the City.
  <bullet> International Bridge II, (Juarez--Lincoln Bridge) and the 
        closing of Streets or Avenues in a rank of two (2) blocks all 
        around its main access. (1.) On the Street 15 of Junio and 
        Santos Degollado Avenue: The closing of vehicles that try to 
        enter to the International Bridge. (2.) On the Street 15 of 
        Junio and Avenue Jesus Carranza: to relieve the traffic along 
        the Street Jesus Carranza to the South. (3.) On the Street 
        Nicolas Bravo and Avenue Jesus Carranza: to give preference to 
        Jesus Carranza street for vehicles that be come from the 
        International Bridge (II). (4.) On Bravo Street and Santos 
        Degollado Avenue: We do not permit the entrance of vehicles to 
        the International Bridge (II) by Santos Degollado Avenue and 
        proceed to send them to the Bravo Street and send the 
        circulation to Boulevard Luis Donaldo Colosio. (5.) On Bravo 
        Street and 20 of Noviembre Street to send circulation to the 
        Boulevard Luis Donaldo Colosio. (6.) International Bridge III, 
        (World Trade Bridge) has an answering time of 10 to 15 minutes 
        and closes the access to Mex 2 highway, and the entrance to the 
        same road and the internal area that is of federal 
        jurisdiction.
Certifications and Qualifications
    Our personnel is certified and qualified by the Laredo, Texas Fire 
Department, in the following specialties: (1.) Fireman 1, (2.) Rescue, 
(3.) HAZ-MAT, (4.) Emergency Management Units. The Red Cross, 
Certification in ER Techniques, Medicaid, Health Sector updating for 
hospital Pre-Techniques; Michou Mau Foundation (for treatment and 
transportation of burned children).
  <bullet> Direction of Civil Protection and Firemen (DIRECCION DE 
        PROTECION CIVIL Y BOMBEROS) operates with 114 elements, with a 
        response time of 7 minutes for any type of contingency that 
        occurs in city limits and along the Rio Grande.
  <bullet> 1.- 2 (two) Operating Units for Civil Protection.
  <bullet> 2.- 2 (two) Utility ATVs for Off-road Needs.
    Consequently in these subjects immediate assistance is offered as 
well as formation of specialized squads and task forces.
    Our Fire Department has two 2004 Freightliner Fire Engines with a 
capacity of 1,260 gallons of water for cases of general fires that can 
be presented within city limits, as well at the disposal for the 
Laredo, Texas authorities.
    We also have a Boat Rescue Unit to lend aid in the margins of the 
Rio Grande to people in risk; or for searching or monitoring corpses, 
by georeference of the conditions in which the margins of the Rio Bravo 
are found, to locate, diagnose and establish joint strategies.
    This area also counts with HAZ-MAT certification (Program of 
Security) for chemical discharges that attend contingencies of this 
nature, with personnel specialized attention in high-risk zones, where 
it is necessary to jointly establish routes for the transit of vehicles 
that carry dangerous materials.
    For a better communication between both cities, it is possible to 
establish a radio communication frequency, or either use Nextel phones 
(PTT) between both cities authorities to achieve full binational 
collaboration.
    As a last note, it is important to establish that a possible 
problem that could exist is the need of passport and visas approval by 
the U.S. Government in order to allow Mexican authorities that need to 
cross to the United States, basically civil protection and fire 
department personnel.

    Mr. Cuellar. Muchos gracias for your testimony [Spanish]. I 
said that in Spanish. In English, it's a pleasure that you are 
here with us. We do understand in this area that the Rio Grande 
River does not divide us, but actually unites us in a community 
up and down the Rio Grande. Thank you on both sides.
    At this time. I would like to go ahead and recognize Mr. 
Peters to summarize his statement for 5 minutes. Director 
Peters.

  STATEMENT OF JOE M. PETERS, DIRECTOR, TECHNOLOGY ASSISTANCE 
            DIVISION, SHERIFFS' ASSOCIATION OF TEXAS

    Mr. Peters. Chairman Cuellar, Ranking Member of the 
subcommittee, Mr. McCaul. My name is Joe Peters. I serve as 
director of the Technology Assistance Division of the Sheriffs' 
Association of Texas and as director of the Border Research and 
Technology Center, a program of the National Institute of 
Justice. I'm also a founding member of the Texas Radio 
Coalition. I retired after 30 years of service with the 
Department of Public Safety as a Texas Highway patrol trooper, 
highway patrol sergeant and the last 18 years of my career as a 
Texas Ranger.
    I grew up in Zavala County and spent a good portion of my 
career as a Texas Ranger working in the border regions. It's my 
pleasure to appear before you today, and to thank you for the 
opportunity to discuss the state of interoperable border 
emergency communications along the Texas border.
    One of the most significant challenges to emergency 
communications along the Texas-Mexico border has been and 
continues to be a lack of operability in many areas. This is 
not to downplay the importance of interoperability, but without 
the ability to communicate at all because of a lack of adequate 
coverage provided by the antiquated systems in place in many of 
the rural areas along the border, interoperability becomes a 
moot point. Due to the much appreciated congressional support 
for the Homeland Security effort, many of the first responders 
serving in the border region are beginning to have some hope 
that relief is finally on the way in the historically 
underserved region. Some jurisdictions along the border have 
begun to utilize their Homeland Security Grant program funding 
to begin improvements in their emergency communication system. 
Public Safety Interoperable Communications grant funding 
anticipated later this year will provide a much needed boost in 
those improvements. Resolutions to the emergency communications 
problems are just beginning, but much work remains to be done.
    A second challenge to achieving a desired level of 
operability and interoperability has been a lack of 
cooperation, planning and coordination between jurisdictions. 
I'm pleased to report that we are making progress in that area 
due in large part to grant funding requirements that encourage, 
if not require, planning and cooperation.
    A third and significant challenge to establishing and 
maintaining interoperable emergency communication systems along 
the Texas border is a lack of reliable recurring funding 
mechanism for operations and maintenance of the systems being 
or about to be deployed. Again, many of the border area 
agencies lack the tax base to support operations in maintenance 
of a state-of-the-art communication system they so richly 
deserve to put them on par with their counterparts in the more 
affluent areas of the State.
    The funding committee of the Texas Radio Coalition is 
looking at possible solutions such as a small increase in the 
911 service fee charged to customers in the public switched 
telephone network. This fee in Texas is currently set at 50 
cents per telephone line up to 100 lines per subscriber. The 
fee is used to operate and maintain the 911 system across the 
State. A small increase in this fee would serve to fund the 
operation and maintenance of the public safety emergency 
communication systems across the State. This or almost any fee 
increase will require a tremendous amount of grassroots support 
across the State to overcome the efforts of the lobby whose 
clients, the service providers, would not support such 
increases.
    Even as the emergency communications infrastructure is 
replaced in the border region, many of the smaller agencies, 
especially fire departments and law enforcement, still have 
been unable to afford to purchase adequate number of mobile and 
especially portable radios, so their responders will be able to 
communicate whenever and wherever they may have the need.
    As grant funding is made available to the border region, a 
significant concern is that many of the local jurisdictions, 
particularly those in economically depressed areas, and those 
are many, will be unable to meet the cash max requirements of 
those grants and thus be deprived of the opportunity to upgrade 
their emergency communication systems. Even when funding is 
identified for system upgrades, a lack of available radio 
spectrum could still prevent some jurisdictions along the 
Texas-Mexico border from deploying upgraded systems. The vast 
majority of the geographic expanse of the Texas-Mexico border 
is currently served by emergency communication systems 
operating in the VHF band which offered very limited spectrum 
availability for the public safety user. This band is also 
played by interference from both sides of the border. In 
instances where the interference is identified as originating 
from the Mexican side of the border, fortunately the responder 
community in some areas along the border has established local 
relationships with Mexican regulatory authorities and in many 
cases those interference issues are resolved quickly and 
efficiently with often no more than a short visit or a phone 
call to those authorities.
    Spectrum in the 700 megahertz band that will soon be 
available to most of the United States will not be available to 
public safety along the Texas border until the appropriate 
agreements with Mexico are negotiated. That process is underway 
with no estimate of when that very lengthy process will be 
completed, but a significant impediment to you of utilization 
of those frequencies along the border. The need for effective 
reliable cross-border communications is significant and 
increasing. Once again, the resourcefulness of local first 
responders has helped mitigate this issue in some areas, but a 
long-term fixed solution must be identified and implemented. 
This solution is important not only in the case of catastrophic 
incidents, but in the day-to-day response on both sides of the 
border. Establishing cross-border mutual aid channels with 
regulatory authority to operate on either side of the border 
may well be an efficient step in the right direction.
    The formation of the Texas Radio Coalition has been 
instrumental in providing a venue for public safety 
communications users across Texas to come together in many 
cases for the first time in a spirit of cooperation and 
coordination. The Radio Coalition membership includes 
representatives of all public safety disciplines from local, 
tribal, State and Federal agencies. The TxRC, by the way, owes 
much of its success to Mr. Peter Collins and to Mr. Mike 
Simpson, the wireless communication manager for the city of 
Austin for their unprecedented support for the Radio Coalition.
    As a result of having attend the regularly scheduled 
meetings of the Coalition, representatives of the five councils 
of government with counties contiguous to the Texas-Mexico 
border have been working cooperatively to form the Texas Border 
Communications Project. The goal of this project is to maximize 
utilization of the anticipated PSIC funding to establish a 
common shared infrastructure within those five councils of 
government areas of responsibility from El Paso to Brownsville. 
This group has accomplished more toward cooperation and 
coordination in the last few months to further emergency 
communications than likely has ever been accomplished in the 
border region.
    The border project was born of the effort of the Middle Rio 
Grande Development Council under the leadership of their 
executive director, Leodoro Martinez, and with project 
oversight by their Homeland Security director, Forrest 
Anderson.
    The Middle Rio Grande Regional System is a state-of-the-
art, Project 25-compliant, spectrum-efficient, VHF-trunked 
infrastructure currently being shared with local, tribe, State 
and Federal users. The system is switched via a master site 
owned and maintained by the city of Austin. Once again, the 
city of Austin stepped up to the plate and offered excess 
capacity on their switch at no cost to assist the Middle Rio 
Grande establish their regional system.
    Most entities across the Texas-Mexico border region 
currently utilize radio communications towers that are either 
expensive leased towers or they are 30- to 35-year-old towers 
purchased with LEAA funding in the 1970's. As the experience in 
the Middle Rio Grande deployment will show, these older towers 
must now be budgeted for replacement. Some of these towers were 
bound to be in serious need of significant repair or 
replacement due to corrosion and/or a lack of routine 
preventative maintenance. Some of them are quite simply 
overloaded with antennas and transmission line and may be in 
danger of collapse due to overloading.
    Several entities within the border region have recently 
acquired mobile communications vans or trailers equipped to 
provide communications gateway functionality to achieve 
interoperability at incident scenes as may be required from 
time to time. These investments in technology have proved to be 
quite useful already, these often during critical incident. The 
first 2 hours of the response is the most critical period where 
interoperability is required. Systems must be designed and 
deployed so that interoperability is always on and at the 
ready. Another advantage of having this always-on capability is 
that the emergency communications user community is intimately 
familiar with the equipment because it is their primary means 
of communication and is in use during their day-to-day 
response.
    In conclusion, it's safe to say that the state of 
interoperability communications along the Texas border is on 
the verge of significant improvement due in no small part to 
the foresight of local leaders and the unwavering support of 
leaders such as Chairman Cuellar, the Members of this 
subcommittee and other Members of Congress. The work has only 
begun and much remains to be done and, fortunately, many of the 
entities along the border are only able to provide their 
demonstrated willingness to plan, coordinate and cooperate to 
ensure that whatever Federal funding they receive will result 
in a substantial return on investment for the Federal 
Government.
    Again, a sincere thank you for the opportunity to discuss 
border communications with you, and I look forward to the 
opportunity to respond to any questions the subcommittee may 
have.
    [The statement of Mr. Peters follows:]

                  Prepared Statement of Joe M. Peters
                           February 19, 2008

    Chairman Cuellar and Members of the committee, my name is Joe 
Peters, and I serve as the Director of the Technology Assistance 
Division of the Sheriffs' Association of Texas and as Director of the 
Border Research and Technology Center, a program of the National 
Institute of Justice. I am also a founding member of the Texas Radio 
Coalition. I retired after 30 years of service with the Texas 
Department of Public Safety (DPS) as a Texas Highway Patrol Trooper, 
Highway Patrol Sergeant and the last 18 years of my DPS career as a 
Texas Ranger. I grew up in Zavala County and spent a significant 
portion of my career in the Texas Rangers working in the border region. 
It is my pleasure to appear before you today and I thank you for the 
opportunity to discuss the state of interoperable emergency 
communications along the Texas Border.

                           CHALLENGES WE FACE

    One of the most significant challenges to emergency communications 
along the Texas-Mexico border has been and continues to be a lack of 
``operability'' in many areas. This is not to downplay the importance 
of ``interoperability'' but without the ability to communicate at all, 
because of lack of adequate coverage provided by the antiquated systems 
in place in many of the rural areas along the border, interoperability 
becomes a moot point. Due to the much appreciated congressional support 
for the Homeland Security effort, many of the first responders serving 
the border region are beginning to have some hope that relief is 
finally on the way in the historically underserved region. Some 
jurisdictions along the border have begun to utilize their Homeland 
Security Grant Program funding to begin improvements in their emergency 
communications systems. Public Safety Interoperable Communications 
grant funding anticipated later this year will provide a much-needed 
boost in those improvements. Resolutions to the emergency 
communications problems are just beginning and much work remains to be 
done.
    A second challenge to achieving the desired level of operability 
and interoperability has been a lack of cooperation, planning and 
coordination between jurisdictions. I am pleased to report that we are 
making progress in that arena, due in large part to grant funding 
requirements that encourage if not require such planning and 
cooperation.
    A third and significant challenge to establishing and maintaining 
interoperable emergency communications systems along the Texas border 
is the lack of a reliable recurring funding mechanism for operations 
and maintenance of the systems being or about to be deployed. Again, 
many of the border area agencies lack the tax base to support 
operations and maintenance of the state-of-the-art communications 
systems they so richly deserve to put them on par with their 
counterparts in the more affluent areas of the State. The funding 
committee of the TxRC is looking at possible solutions such as a small 
increase in the 911 service fee charged to customers on the public 
switched telephone network. This fee in Texas is currently set at 50 
cents per telephone line up to 100 lines per subscriber. This fee is 
utilized to operate and maintain the 911 system across the State. A 
small increase in this fee would serve to fund the operation and 
maintenance of public safety emergency communications systems across 
the State. This or almost any fee increase will require a tremendous 
amount of grassroots support across the State to overcome the efforts 
of the lobby whose clients, the service providers, would not support 
such increases.
    Even as the emergency communications infrastructure is replaced in 
the border region, many of the smaller agencies, especially fire and 
law enforcement, still have been unable to afford to purchase an 
adequate number of mobile and especially portable radios so their 
responders will be able to communicate whenever and wherever they may 
have the need.
    As grant funding is made available to the border region, a 
significant concern is that many of the local jurisdictions, 
particularly those in economically depressed areas, and those are many, 
will be unable to meet the cash match requirements of those grants and 
thus be deprived of the opportunity to upgrade their emergency 
communications systems.
    Even when funding is identified for system upgrades, a lack of 
available radio spectrum could still prevent some jurisdictions along 
the Texas-Mexico border from deploying upgraded systems. The vast 
majority of the geographic expanse of the Texas-Mexico border is 
currently served by emergency communications systems operating in the 
VHF band which offers very limited spectrum availability for the public 
safety user. This band is also plagued by interference from both sides 
of the border. In instances where the interference is identified as 
originating from the Mexican side of the border, fortunately, the 
responder community in some areas along the border has established 
local relationships with Mexican regulatory authorities and in many 
cases, those interference issues are resolved quickly and efficiently 
with often no more than a short visit or a phone call to those 
authorities.
    Spectrum in the 700 MHz band that will soon become available to 
most of the United States will not be available to public safety along 
the Texas border until the appropriate agreements with Mexico are 
negotiated. That process is underway with no estimate of when that very 
lengthy process will be completed.

                      CROSS-BORDER COMMUNICATIONS

    The need for effective, reliable cross-border communications is 
significant and increasing. Once again, the resourcefulness of local 
first responders has helped mitigate this issue in some areas but a 
long-term fixed solution must be identified and implemented. This 
solution is important not only in the case of catastrophic incidents 
but in day-to-day response. Establishing cross-border mutual aid 
channels with regulatory authority to operate on either side of the 
border may well be an efficient step in the right direction.

                           WHERE ARE WE NOW?

    The formation of the Texas Radio Coalition (TxRC) has been 
instrumental in providing a venue for public safety communications 
users across Texas to come together in many cases for the first time in 
a spirit of coordination and cooperation. The TxRC membership includes 
representatives of all public safety disciplines from local, tribal, 
State and Federal agencies. The TxRC, by the way, owes much of its 
success to Mr. Peter Collins and to Mr. Mike Simpson, Wireless 
Communications Services Manager for the city of Austin for their 
unprecedented support for the TxRC.
    As a result of having attended the regularly scheduled meetings of 
the TxRC, representatives of the five Councils of Government (COGs) 
with counties contiguous to the Texas-Mexico border have been working 
cooperatively to form the Texas Border Communications Project. The goal 
of this project is to maximize utilization of the anticipated PSIC 
funding to establish a common, shared infrastructure within those five 
COG areas of responsibility from El Paso to Brownsville. This group has 
accomplished more toward cooperation and coordination in the last few 
months to further emergency communications than has ever been 
accomplished in the border region.
    This border project was born of the effort of the Middle Rio Grande 
Development Council (MRGDC) under the leadership of their Executive 
Director, Leodoro Martinez with project oversight by their Homeland 
Security Director, Forrest Anderson.
    MRGDC leadership recognized in 2001 that the first responder 
community across the entire economically depressed nine-county, almost 
15,000-square-mile region was in desperate need of emergency 
communications system improvements. Many of their agencies were totally 
dependant upon communications infrastructure that was purchased with 
Law Enforcement Assistance Administration grant funding in the early 
1970's, was unreliable and obsolete, making repair parts acquisition 
difficult if not impossible. There were many instances of radio 
technicians being forced to cannibalize the base station radios 
installed in the 1970's intended solely for interagency communications 
State-wide, obviously rendering that limited method of interoperability 
totally useless. In some cases, agencies were unable to afford the 
repair costs for their equipment and certainly could not afford to 
purchase replacement equipment. In some cases, agencies were forced to 
purchase substandard equipment that could not long withstand the rigors 
of the sometimes harsh public safety environment. This situation may 
have placed the safety of the first responders and the citizens they 
serve in jeopardy because of poor or nonexistent emergency 
communications.
    The MRGDC emergency communications community came together and 
after studying their options, elected to seek funding to establish a 
region-wide, multi-agency, multi-jurisdiction shared state-of-the-art 
interoperable communications infrastructure to be deployed across all 
nine counties of the region. Their first attempts to acquire grant 
funding to start the project failed. Several members of the first 
responder community approached their congressional and legislative 
representatives at the time to seek advice on how they might enhance 
their chances at securing grant funding. Ultimately, congressionally-
directed funding was secured to begin the project. It was established 
as a multi-phase project to be deployed over 4 years. The originally 
planned MRGDC Regional Communications Project infrastructure should be 
completed and fully operational by the end of calendar 2008, pending 
receipt of requested PSIC funding later this Spring.
    The MRGDC regional system is a state-of-the-art, Project 25-
compliant, spectrum-efficient, VHF-trunked infrastructure currently 
being shared with local, tribal, State and Federal users. The system is 
switched via a master site switch owned and maintained by the city of 
Austin. Once again, the city of Austin stepped up to the plate and 
offered excess capacity on their switch, at no cost, to assist the 
MRGDC establish their regional system. This infrastructure, while 
shared across the entire nine-county region, still affords each agency 
the opportunity to have their own private talk groups as their needs 
may dictate. There are a number of local and region-wide interoperable 
talk groups available in every radio on the system for use when the 
need arises. One of the pitfalls encountered with this project is that 
only a limited amount of the budget was dedicated to the purchase of 
subscriber radio equipment for the first responder community across the 
region. Consequently, a number of agencies have not been able to fully 
utilize the system due to the fact they cannot afford to provide their 
entire fleet with the required mobile and handheld radio equipment 
until additional grant funding is received. Some agencies were able to 
provide some local funding for purchase of the required subscriber 
equipment without waiting for the next grant funding cycle.
    Most entities across the Texas-Mexico border region currently 
utilize radio communications towers that are either expensive leased 
towers or they are 30-35-year-old towers purchased with LEAA funding in 
the 1970's. As the experience in the MRGDC deployment would show, those 
older towers must now be budgeted for replacement. Some of these towers 
were found to be in serious need of significant repair or replacement 
due to corrosion and/or a lack of routine preventive maintenance. Some 
of them are quite simply overloaded with antennas and transmission line 
and may be in danger of collapse due to overloading.
    Several entities within the Texas-Mexico border region have 
recently acquired mobile communications vans or trailers equipped to 
provide communications gateway functionality to achieve 
interoperability at incident scenes as may be required from time to 
time. These investments in technology have proven to be quite useful 
already. A very recent example where the communications trailers were 
instrumental in providing interoperability was the recent incidents of 
range fires that blackened almost 20,000 acres in the South Texas 
border region. This method of achieving interoperability is certainly a 
necessary part of any interoperable communications plan, but it should 
not be relied upon as a permanent fix. Often, during a critical 
incident, the first 2 hours of the response is the most critical period 
where interoperability is required. Systems must be designed and 
deployed so that interoperability is ``always on'' and at the ready. 
Another advantage of having this ``always on'' capability is that the 
emergency communications user community is intimately familiar with the 
equipment because it is their primary means of communication and is in 
use during their day-to-day response.
    In conclusion, it is safe to say that the state of interoperable 
emergency communications along the Texas border is on the verge of 
significant improvement, due in no small part to the foresight of local 
leaders and the unwavering support of leaders such as Chairman Cuellar, 
the Members of this subcommittee and other Members of Congress. The 
work has only begun and much remains to be done. Unfortunately, many of 
the entities along the border are only able to provide their 
demonstrated willingness to plan, coordinate and cooperate to ensure 
that what ever Federal funding they receive will result in a 
substantial return on investment for the Federal Government.
    Again, a sincere thank you for the opportunity to discuss border 
communications issues with you. I look forward to the opportunity to 
respond to any questions the subcommittee may have.

    Mr. Cuellar. Mr. Peters, thank you again for your testimony 
and you brought up a lot of very interesting points, and we are 
going to have some questions. As you know, the Federal 
Government put in a billion dollars for the State so they can 
add interoperability and 5 percent, my understanding, has 
already gone out for planning. The other 95 percent of the $1 
billion to be available, but a lot will be dependent on what 
States do to the planning and the coordination. So we certainly 
want to thank you all for the leadership that you've taken.
    The other thing is the rural areas, that's a big concern 
for all of us, the small communities, concerns also about the 
issues about--as you know, the 700 megahertz will be available 
for public safety, but the border's in a very unique situation, 
Mr. Director. If we don't get an agreement with the Mexican 
side, that's going to put our side at a disadvantage, so we 
certainly--I think, Members of the committee, we certainly want 
to make sure that we're updated on that. Certainly we told 
Secretary Chertoff the other day about thinking outside the 
box.
    The Federal Government has towers along the borders and 
will be putting more towers along the borders, whether for 
cameras or for other purposes. I think a partnership with our 
State and local folks to use those towers instead of 
reinventing the wheel and putting in another tower and using 
some of those towers is something that I would ask you all to 
look at to make sure that we coordinate that. So we'll cover 
some of those points in a few minutes, but we've got to think 
outside the box. We've got to listen to our folks here because 
the border is in a very, very unique situation, but why don't 
we go ahead and move on and we'll open up for questions.
    Mr. Simpson, I want to thank you again--first of all, Mr. 
Peters, thank you again very much, and, Mr. Simpson, I now 
recognize you to summarize your statement for 5 minutes.

    STATEMENT OF MICHAEL SIMPSON, STATE-WIDE COMMUNICATIONS 
INTEROPERABILITY PLAN COORDINATOR AND TECHNOLOGY ADVISOR, TEXAS 
                        RADIO COALITION

    Mr. Simpson. Mr. Chairman and subcommittee Members, Mr. 
McCaul, my name is Michael Simpson. I'm the wireless 
communication services manager for the city of Austin, Texas, 
but I'm appearing today before this body in the capacity of 
State-wide Communications Interoperability Plan Coordinator and 
Technology Advisor for the Texas Radio Coalition, also known as 
the TxRC. This group is composed of individuals from various 
agencies and associations that represent public safety and 
critical infrastructure first responders from both urban and 
rural areas from across the State, thus allowing TxRC to serve 
as a voice to that community in Texas.
    Governor Rick Perry appointed the TxRC as the governing 
body for the Texas State-wide Communications Interoperability 
Plan. The TxRC's primary is oversight of public safety 
communication interoperability in Texas and the development and 
ongoing revision of the Texas State-wide Communications 
Interoperability Plan. The responsibility includes, but is not 
limited to, making official recommendations to the Governor of 
Texas, the Texas Homeland Security director, and the Governor's 
Division of Emergency Management. The recommendations concern 
interoperability technology procurement, training exercises, 
standard operating procedures, implementation and funding of 
the same.
    In a news conference on April 11 of last year, Governor 
Perry announced a partnership with the TxRC with respect to a 
State-wide interoperable communications plan. In May 2007, the 
Texas Homeland Security Director Steve McGraw formerly 
requested that the TxRC develop a new Texas State-wide 
Communications Interoperability Plan as required by the U.S. 
Department of Homeland Security. Working with the Texas 
Association of Regional Councils of Government and the 
Sheriffs' Association of Texas, the TxRC oversaw a State-wide 
communications asset survey, 27 regional and special focus 
group sessions and a State-wide strategic planning session that 
led to the development of the 141-page Texas State-wide 
Communication Interoperability Plan. A copy of that plan has 
been submitted to the subcommittee with my written remarks 
along with an appendix entitled Texas State-wide 
Interoperability Channel Plan. Copies have been presented to 
Mr. Turbyfill.
    Although we have interoperability needs in every region, 
from its inception the TxRC has placed improvement of the Texas 
Border Interoperability Communications Radio as its top 
priority. Toward this goal, the TxRC sponsored the formation of 
the Texas Border Communications Project which brings together 
Federal, State, local and tribal agencies in the five councils 
of governments regions along the Texas border with Mexico from 
El Paso to Brownsville. The project oversight team has been 
meeting on a regular basis since the fall of 2007 to coordinate 
the planning and build-out of an integrated standards-based 
radio communications capability from El Paso to Brownsville. 
The funding approved by Congress in the form of the Public 
Safety Interoperable Communications Grant Program was the 
catalyst that kick-started this project. Thank you. Once grant 
funding draw-down is approved this spring, the project will 
launch this summer with the PSIC Grant Program performance 
period to end on August 31, 2010. This piece of the project 
will cost close to $10 million. However, complete build-out of 
the infrastructure, upgrade of certain existing mobile and 
portable radios and acquisition of needed additional subscriber 
units will put the totality estimated project cost along the 
border in excess of $150 million, most of which is unfunded at 
this time. Additional Federal assistance will be needed for 
successful project completion.
    On behalf of the TxRC and the 24 million Texas residents 
served by our interoperability planning efforts, I thank the 
subcommittee for the opportunity to discuss our activities and 
plans today. We are truly appreciative of the program and 
funding support to date from Congress as we move steadily 
toward building a State-wide standards-based radio system by 
January 2015. The enormity of this undertaking is such that 
ongoing congressional support will be critical to our success.
    Again, thank you, and I stand ready to answer any 
questions.
    [The statement of Mr. Simpson follows:]

                 Prepared Statement of Michael Simpson
                           February 19, 2008

    Mr. Chairman and subcommittee Members, my name is Michael Simpson. 
I am the Wireless Communication Services Manager for the city of 
Austin, Texas, but I am appearing today before this body in the 
capacity of State-wide Communications Interoperability Plan Coordinator 
and Technology Advisor for the Texas Radio Coalition, also known as the 
TxRC. This group is composed of individuals from various agencies and 
associations that represent public safety and critical infrastructure 
first responders from both urban and rural areas across the State, thus 
allowing TxRC to serve as a voice for that community in Texas.
    Governor Rick Perry appointed the TxRC as the governing body for 
the Texas State-wide Communications Interoperability Plan. TxRC's 
primary purpose is oversight of public safety communications 
interoperability in Texas, and the development and on-going revision of 
the Texas State-wide Communications Interoperability Plan. 
Responsibility includes, but is not to be limited to, making official 
recommendations to the Governor of Texas, the Texas Homeland Security 
Director, and the Governor's Division of Emergency Management. 
Recommendations concern interoperability technology procurement, 
training, exercises, standard operating procedures, implementation, and 
funding of same.
    In a news conference on April 11, 2007, Governor Perry announced a 
partnership with the TxRC with respect to State-wide interoperable 
communications planning. In May, 2007, Texas Homeland Security Director 
Steve McCraw formally requested the TxRC to develop the new Texas 
State-wide Communications Interoperability Plan, as required by the 
U.S. Department of Homeland Security.
    Working with the Texas Association of Regional Councils of 
Governments and the Sheriffs' Association of Texas, TxRC oversaw a 
State-wide communications assets survey process, 27 regional and 
special Focus Group Sessions, and a State-wide Strategic Planning 
Session that led to the development of the 141-page Texas State-wide 
Communications Interoperability Plan. A copy of the Plan has been 
submitted to the subcommittee with my written remarks, along with an 
appendix entitled the Texas State-wide Interoperability Channel Plan.
    Although we have interoperability needs in every region, from its 
inception, the TxRC has placed improvement of Texas border 
interoperable radio communications as its top priority. Toward this 
goal, TxRC sponsored the formation of the Texas Border Communications 
Project, which brings together Federal, State, local, and tribal 
agencies in the five Councils of Governments' regions along the Texas 
border with Mexico. The Project Oversight Team has been meeting on a 
regular basis since the fall of 2007 to coordinate the planning and 
build-out of an integrated, ``standards-based'' radio communication 
capability from El Paso to Brownsville. The funding approved by 
Congress in the form of the Public Safety Interoperable Communications 
(PSIC) Grant Program was the catalyst that kick-started this project. 
Once grant funding draw-down is approved this Spring, the Project will 
launch this summer, with the PSIC Grant Program performance period to 
end August 31, 2010. This piece of the Project will cost close to $10 
million. However, complete build-out of the infrastructure, upgrade of 
certain existing mobile and portable radios, and acquisition of needed 
additional subscriber units, will put the total estimated Project cost 
in excess of $150 million, most of which is unfunded. Additional 
Federal assistance will be needed for successful Project completion.
    On behalf of the TxRC, and the 24 million Texas residents served by 
our interoperability planning efforts, I thank the subcommittee for the 
opportunity to discuss our activities and plans today. We are truly 
appreciative of the program and funding support to date from Congress, 
as we move steadily toward building a State-wide standards-based radio 
system by January, 2015. The enormity of this undertaking is such that 
on-going congressional support will be critical to our success.
    I will be glad to answer any questions.

    Mr. Cuellar. Mr. Simpson, again, thank you very much for 
your testimony and for the work that you've done, and I want to 
thank all of the witnesses for being here at this time. I would 
like to remind each Member that he or she will have 5 minutes 
to question the panel with a little flexibility, of course, 
added. I will go ahead and I'll now recognize myself for the 
first set of questions.
    This question goes to Director Essid. As you know, the 
International Board of Interoperability Communications 
Demonstration Project was created by implementing 
recommendation of the 9/11 Commissions Act of 2007. I was a 
Member of that particular bill. It was signed into law on 
August 3, 2007. It is my understanding that your office has 
been coordinating with FCC and the Department of Commerce to 
decide the location of six communities along the northern and 
southern borders for this pilot. The pilot--I assume this 
project, three will probably be in the northern part of the 
States and three in the southern part of the United States, I 
assume. Can you give the committee an update of what has 
transpired so far in the interactions with FCC and the 
Department of Commerce and explain the criteria that's been 
developed to select these six communities and when you expect 
that pilot program to start.
    Mr. Essid. Mr. Chairman, right now the criteria is still 
under development. We know what was given to us per the 
legislation, but, you know, criteria hasn't been finalized. 
We're coordinating right now. We've submitted some estimates at 
your request. That's still going through the approval process 
at DHS to give you some estimates on the cross-border projects, 
but right now as far as final criteria goes, we don't have any 
yet. We're still working on it.
    Mr. Cuellar. Can you give us an rough estimate when you'll 
be--I don't want to tie it up to the exact date and hour, but a 
rough estimate?
    Mr. Essid. Well, you know, right now we're trying to figure 
out--there's various options for the cross-border projects. 
Would it be a split three in the northern, three in the 
southern, what size projects, small, medium, large, voice and 
data. There's so many variables that we're working through 
right now to establish the criteria and then those are directly 
linked to what funding the projects would require also, sir. So 
we're working on it. We're moving as quickly as possible. We 
should have some criteria I know in the very near future, but 
as far as the specific dates, sir, I can go back and ask my 
staff if you would like and I can get you a response on record.
    Mr. Cuellar. Thank you. Just give us an update on the 
progress on that and to the committee staff. Let me--questions 
again for Mr. Essid, for Mr. Peters and Mr. Ledezma, and then I 
have a question for Mr. Simpson on one issue. Congress, as you 
know, set the date of February 17, 2009 to transfer portions of 
the 700 megahertz spectrum to the public safety in the budget 
Reconciliation Act of 2006. The FCC is currently in the process 
of auctioning this spectrum. In your testimony, Mr. Peters, you 
raised a very troubling fact that the 700 megahertz band will 
not become available to public safety along the Texas border 
unless the appropriate agreements between the United States and 
Mexico are negotiated. My first question to you and then I'll 
move onto the other individuals, Mr. Peters, can you further 
elaborate on how you believe this will impact Texas and what 
outstanding issues that are still under consideration?
    Mr. Peters. As I mentioned in my testimony, the majority of 
the geography along the Texas-Mexico border now is covered by 
systems that operate in the VHF frequency band--VMF high band 
frequency band. Someone in here smarter than I am can probably 
correct me if I'm wrong, but somewhere in the neighborhood of a 
little over 3 megahertz are available--in that spectrum 
available to public safety. The 700 megahertz spectrum, there 
is a total of 24 megahertz available depending on locations and 
other uses and so forth. Until the treaties are negotiated with 
Mexico, those 700 megahertz frequency-based spectrum is not 
available to border areas across the country for that matter 
within 140 kilometers of the border. We can't fire up the 
transmitter on those frequencies until those treaties are 
agreed to with Mexico. Not a small task in itself is getting 
those treaties. There are television stations in Mexico 
operating on those frequencies still and, as a matter of fact, 
there's still some in the United States. But as you mentioned, 
February 2009 they are supposed to be gone and public safety 
will have priority. But not having that spectrum available to 
public safety along the border will have a significant negative 
impact on interoperability along the border.
    Mr. Cuellar. Thank you. Mr. Essid, with February 17, 2009 
just a year away--less than a year away, can you explain what 
the principal Federal agencies involved in this negotiation, 
DHS, the State, tell us, you know, where are we on this 
negotiation because that's going to put the whole border at a 
very disadvantage, and I think you know my personal feelings. 
You know, it's--people talk about a wall, but we can't even get 
these communications between our neighbors started, and we're 
extremely interested in where we are on this issue.
    Mr. Essid. Yes, sir. We've got some pretty good 
negotiations and coordination going on between the United 
States and Mexico with the High Level Consultative Commission, 
the HLCC. They have got some long-term border interoperability 
solutions we've been working on. We attended some meetings in 
Mexico earlier this month and making a lot of progress, you 
know, and it's really looking at the first ever long-term 
agreement between the U.S. Government, the Mexican Government 
or the State, local and Federal folks along the border.
    I know 700 megahertz is in those discussions right now. I 
don't know the exact point where we're at today, but what I 
will do is find out when I go back to the District of Columbia, 
have my staff research it and report back to the committee. I 
know that's one of the issues that is amongst a lot of the 
issues that are being discussed, but we're making significant 
progress on a lot of the issues, and I don't know the exact 
point where 700 megahertz is right now, but our intent is to 
move forward and get some agreements as quickly as possible, 
not to hold anyone up from planning.
    Mr. Cuellar. And not only keep us in informed, but I 
specifically would request to you that the different witnesses 
are here, that y'all get to know each other real quickly and 
communicate. So not only with our committee, but also with the 
witnesses who are here, all of them present.
    One other question. Mr. Ledezma, just to follow up on this 
is who in the Mexican Government is--are the equivalent 
participants or negotiating these agreements.
    Mr. Ledezma. There's one group responsible of communication 
we're talk being about here. That will be the Federal 
Government. That will be from Secretaria de Gobernacion. That 
depends on them.
    Mr. Cuellar. If you can just send a message back, very 
amicable message from us that we would like for y'all to 
continue working with our Federal Government to get this 
agreement done as soon as possible because it is going to 
affect both sides of the river where we talk about public 
safety.
    Mr. Ledezma. We'll extend the communication.
    Mr. Cuellar. One question, then I'll pass it on to Mr. 
Simpson. Mr. Simpson, in your testimony you state that the 
Texas Radio Coalition has been very successful in working 
collectively to create a State-wide radio communication system, 
and I thank you for all the work that y'all have been doing. 
The Texas Radio Coalition seems to be ahead of the curve when 
it comes to governance and planning, and because of the effort 
and energy that y'all had put in and I certainly applaud you 
for the efforts, can you elaborate as to what are the best 
practices that can be shared with other States that may lack 
the level of coordination we've instituted here in the State of 
Texas?
    Mr. Simpson. Congressmen, Mr. Chairman, we were extremely 
lucky to form an alliance early on in our process which is only 
May of last year, it wasn't that long ago, with the Texas 
Association of Regional Councils of Government that already had 
a standing weekly conference call for all 24 COGs with the SAA, 
the State Administrative Agency, with the Government Division 
of Emergency Management that does grant administration through 
DHS. So that framework was already there and I encourage people 
that use existing frameworks that may be available in their 
States rather than try to invent something new. Because of 
these regional councils of government, they deal with the 
various counties within the region and then the county 
emergency management coordinators deal with individual cities 
and fire departments and police departments within those 
counties. So that network was already there and we just kind of 
tapped into it.
    We also through a partnership with Joe's group, Sheriffs' 
Association of Texas, already has a wide network made up of law 
enforcement throughout the State. That's very important to us 
and then, of course, working with Government Division of 
Emergency Management staff. So together as a collective body, 
we put together a scheme on how we're going to pull this off as 
far as our planning efforts to build a new system, and we only 
have about 4 to 6 months to put a plan together for 24 million 
people. We started with surveying all the police, fire and EMS 
agencies throughout the State through this COG process. That 
filled it up, and we conducted 27 focus group sessions and 
regions around the State, and we have a monthly TxRC steering 
committee meeting in Austin and that rolled up into a State 
strategic planning session that we'll hold every year to 
discuss where we are in the state of interoperability 
communications to make changes to our plan.
    The outgrowth of all of that was a State-wide communication 
in our building plan that was then presented to our governance 
bodies, our oversight bodies, the executive committee which is 
made up of the director of the State police, the DPS, the 
director of the Texas Transportation Department, other key 
players and city and county government, health, around the 
State. They passed our plan out and we submitted it to DHS the 
week before on December 3. That was kind of a crash program in 
how we did it. I'm sure there's pieces of Texas that we haven't 
gotten to and it may not have trickled down to every 
individual, but we're continuing our outreach in that respect.
    Mr. Cuellar. With 254 counties I think you've done very 
well, so thank you again very much. At this time I'd like to 
recognize the Ranking Member of the subcommittee, Mr. Dent, the 
gentleman from Pennsylvania for questions.
    Mr. Dent. Thanks, Mr. Chairman. Mr. Essid, I guess my 
question to you is, as you know, the Office of Emergency 
Communications was established by the Post-Katrina Emergency 
Management Reform Act of 2006. The office was formerly 
established in 2007. Would you please discuss the progress 
that's being made in fully establishing the Office of Emergency 
Communications and also, how many full-time staff you have 
versus contractors?
    Mr. Essid. Yes, sir. Well, I'm happy to say right now we 
have announcements on the street, Federal announcements for job 
opportunities. Seventeen of them were announced late last week, 
early this week. As it stands right now we have five Federal 
employees, GS, government service employees, and we have about 
100 contractors, so supporting our effort now our plans are to 
hire 37 GS employees to offset that balance.
    Mr. Dent. So you are using contractors right now because 
you can't hire Federal employees?
    Mr. Essid. Yes, sir, and we've also got some assistance 
that we've requested to have, detailees from other DHS agencies 
to come in to help us in the year term. Apparently, the hiring 
process in the Federal Government just--I'm 2 months on the job 
and I'm just learning a whole lot about the Federal process, 
but it takes--it's pretty time-consuming, so we're looking at 
every option we can to try to get some other Federal employees 
in the door to help the Office of Emergency Communications.
    Mr. Dent. What can we do to help you hire people? Would a 
direct hire authority be helpful to you?
    Mr. Essid. Well, sir, we looked to requesting a direct hire 
authority and the process it takes to request it and then get 
approval we were told can take anywhere up to 6 months, so we 
rapidly scrapped that option for our initial wave of employees. 
I do--you know, I do appreciate the offer to help. One good 
thing, sir, that I think the committee will be happy to hear is 
that we have a lot of interest in coming to the Office of 
Emergency Communication from folks that have been working 
interoperability for 10 years. Some of them are Federal 
employees that might be able to come into the door a little 
quicker than a 6-month process in transfers. So we've got a lot 
of interest in these jobs. People are asking when are you going 
to advertise them or are there any opportunities where we can 
come on board and assist you in your mission immediately, but, 
you know, I'm not really sure what assistance can be offered. I 
know Secretary Chertoff has offered the same assistance and he 
offered to provide detailees from the agency and put out that 
request.
    Mr. Dent. Another question, I guess, for Mr. Peters. We 
talked a little bit about lack of operability, not to mention 
the challenges of interoperability, but operability. What is 
your sense from a State-wide perspective--not looking at Nuevo 
Laredo for a little bit--what is the current state of 
interoperability between Texas and other States, like Arkansas, 
Oklahoma, or Louisiana, and how does that compare to what's 
happening down here with Mexico? Is it better across the border 
than it is with the other States? I'm just looking at my 
perspective from Pennsylvania. Many of my constituents commute 
from New York City every day, you know, New Jersey and New York 
City, and we look at interoperability kind of within the State 
silo. We've got New Jersey and New York to deal with and New 
York City has its own challenges. I'm just curious how the 
interstate play is versus the international play.
    Mr. Peters. I would suggest that the interoperability 
challenges between the States are probably not as challenging 
as those between Texas and Mexico. Fortunately, the local 
agencies or local public safety first responders, if you will, 
in a lot of cases have good relationships with their 
counterparts on the other side of the border, and often it's 
easier to get cooperation from our counterparts on the other 
side of the border than it is to get cooperation amongst 
ourselves, but----
    Mr. Dent. I had a feeling you were going to say that, but 
go ahead.
    Mr. Peters. Well, I just thought if the shoe fits we need 
to wear it, do something about it. Maybe we can take some 
lessons from our friends in Mexico about cooperation, but as 
far as interoperable communications with surrounding States, 
Louisiana, Arkansas, Oklahoma, New Mexico and so forth, Texas 
has developed a--Texas Communications Interoperable Channel 
Plan that is a list of VHF frequencies, 800 frequencies, 700 
frequencies when they become available and they have--we have 
identified as available State-wide, those frequencies are all 
licensed to the Texas Department of Public Safety State-wide, 
and if a local entity will sign a memorandum agreement with the 
Department of Public Safety, they are free to and encouraged to 
utilize those interoperable frequencies. These are Simplex 
frequencies. They can for the most part only be used at an 
incident, but still that has been--that has proven quite 
successful, and we invite the other States to participate as 
well.
    Mr. Dent. With respect to interoperability, you have 
various challenges due to geography or land. In my own State we 
have mountains in northeastern Pennsylvania. That has 
interrupted interoperable communications. In fact that is where 
the first cable company was laid up there actually because of 
those reasons, because of those intended issues, I'm curious, 
do you have those same challenges here in Texas?
    Mr. Peters. Yes, sir. Just probably more of them. We need 
to keep in mind too that generally the VHF system that was 
deployed in the early 1970's with LEAA grant funding was 
deployed across Texas for the most part and was designed at the 
time for mobile communications, and, you know, the towers were 
spaced accordingly in some cases and in some cases the 
engineers put a dart on the map and placed a tower. Those tower 
placements need to be reconsidered as we move to 700 megahertz 
and 800 megahertz because of the difference in propagation 
characteristics between the bands, and we're experiencing now 
coverage problems where the public safety responder is 
demanding or requiring--not necessarily demanding, but 
requiring communications with hand-held radios or portable 
radios. They can't always have their vehicle with them with a 
high-powered radio in it. They get out of the car on the border 
or out of truck on the border. They are on their own. Often 
don't have commercial service coverage in the areas and would 
be totally dependent on the public safety infrastructure that 
we provide them. Unfortunately, the system that is currently in 
use in most of those rural areas particularly was not designed 
for portable coverage.
    Mr. Dent. I guess one thing too, you keep talking about 
operability, which I think is important. One of the problems 
with Katrina was, of course, operability. Nothing was 
operating. I guess just to get back to the issue of 700 
megahertz, and maybe Mr. Landin can help me with this with 
respect to Laredo, I think you already touched on this issue. 
You can't implement a 700 megahertz system until this treaty is 
implemented or signed, but how much of the 700 megahertz system 
is being implemented throughout Texas right now, I guess, 
absent the border communities? How long will it take to get the 
treaty ratified?
    Mr. Peters. If the question to me is as to how long it will 
take to get the treaty ratified, I don't have a clue except 
that we don't anticipate it will happen any time soon because 
of the challenges that are based by the people that are doing 
those negotiations. We would encourage a prompt response and 
every effort be applied to making that happen because it is so 
critical to national security that the first responders along 
the southwest border, particularly, and the northern border as 
well have the capacity to communicate not only amongst 
themselves, but with their counterparts on the other side of 
those borders.
    Mr. Dent. Mr. Landin, the 700 megahertz issue, how is that 
going to affect you if we don't get this treaty issue resolved?
    Mr. Landin. Currently the city of Laredo is on the 800 
megahertz spectrum, and as I mentioned in my testimony, we do 
have the largest infrastructure radio infrastructure in our 
region alone, and, again, we're far away from any of the or 
communities. We're about an hour's drive away on the U.S. side, 
and, so, yes, we are on the 800 spectrum as we currently speak 
and it's functioning very, very well.
    Mr. Dent. My final question, I guess, is to our friends 
from Nuevo Laredo. When an incident occurs in Nuevo Laredo that 
will affect Laredo, how is that information communicated to 
officials here in Laredo?
    Mr. Ledezma. There's a--it's called C4. When there's a 
contingency in the United States and Mexico, the first ones 
that will be called will be Secretaria de Gobernacion. 
Secretaria de Gobernacion will delegate the responsibilities to 
C4. That is what we call it. That will be center of control 
command and compute. After the immediate, it will be notified 
for the different authorities that will be--Sedena will be the 
Mexican military, Procuraduria General of the Republica, the 
attorney general, will be combined with all authorities and it 
will just be one host for the authorities.
    Mr. Landin. I can expand a little bit on that because we do 
respond to the border on the bomb threats and also the river 
rescues, the Laredo Fire Department responds there, and so 
basically the way we get the call is basically over the 
telephone through 911 and we pick up a tie line and our Laredo 
International Bridge, it will directly call over to the Nuevo 
Laredo Bridge and that will activate them and then they'll 
communicate on their end. On our end we're, again, on the 800 
spectrum radio system and that's the way we currently respond 
through phone currently or personal cell phones or regular land 
lines.
    Mr. Dent. Do you have any mutual aid agreements between 
Laredo and Nuevo Laredo whether it's a fire or other type of 
incident?
    Mr. Landin. We do have an understanding and we have 
responded to fires in Nuevo Laredo as recently as the Christmas 
season. We assisted the Nuevo Laredo Fire Department in 
extinguishing a couple of houses that burned over there and as 
well as some grass fires that were ongoing over there during 
that time. So, yes, we do have that understanding. We do 
respond in there into Nuevo Laredo, and basically our radios 
will work to very limited capabilities, but we cannot 
communicate with Nuevo Laredo at all over the radio. Basically 
we rely on hand signals or we can call them through Nextels as 
they've indicated a little while ago. That is the way we rely 
on communicating with them in emergency situations. That is why 
we bring that solution that--that I proposed in my testimony 
was basically the addition of towers that would be able to 
carry over and provide us communication into Mexico for that 
purpose and adding additional infrastructure along the border 
would be a big plus for that.
    Mr. Cuellar. Before I pass him on just a clarification. Mr. 
Essid, who are the principal participants responsible in this 
U.S.-Mexico negotiations? Is it the OEC, DHS or is it the State 
Department?
    Mr. Essid. I know it's OEC and the State Department.
    Mr. Cuellar. Who's the driving force on our side?
    Mr. Essid. OEC is really going down there with the 
technical negotiations, and so we're working in conjunction 
with the State Department, sir. I mean I don't know who the 
driving force is. I know we have to go through the State 
Department with our negotiations and our coordination with the 
Mexican Government.
    Mr. Cuellar. Again, just to remind you, we want to be 
informed periodically. I'll let y'all work it out with our 
staff.
    Mr. Essid. Yes, sir. It will be first and foremost on my 
mind when I go back to Washington.
    Mr. Cuellar. Thank you. At this time the Chair recognizes 5 
minutes from the gentleman from Indiana, Mr. Souder.
    Mr. Souder. Mr. Essid, do we have the same problem on the 
northern border with the 700 megahertz?
    Mr. Essid. Yes, sir. I think we're going to have 
coordination with both borders.
    Mr. Souder. Is there as much resistance on the northern 
border? In other words, they have TV stations and that's the 
only two you know.
    Mr. Essid. Well, it's complicated. I'm sure they have the 
same issues that everyone's having with the TV stations having 
to, you know, vacate and then you have buffer zones and things 
of that nature until you get these treaties worked out. I do 
know we're working with the 2010 Olympics and we're working 
through going through some planning that's involving the 
Canadian government as well, so this issue has come up there.
    Mr. Souder. Mr. Peters and Mr. Simpson, maybe I can start 
with you on this question. Do--these radios, are they used for 
law enforcement in addition to fire and public safety?
    Mr. Peters. The idea is to have one radio that will serve 
all disciplines.
    Mr. Souder. Is it a similar challenge or different as it 
relates to our Federal agencies like Border Patrol?
    Mr. Peters. It depends on the area you are talking about. 
The city of Laredo, for example, operates on an 800 megahertz 
trunk system. The Federal agencies in all the borders that I'm 
aware of operate at VHF. The two are not compatible.
    Mr. Souder. So as I move along the Texas border, different 
sheriff's departments are sometimes going to be able to 
interconnect with Border Patrol and sometimes not?
    Mr. Peters. That's true readily.
    Mr. Souder. Mr. Essid, that--one of my frustrations is have 
you ever dealt with the Department of Defense? Do they talk to 
you about what they've done on this?
    Mr. Essid. Yes, sir. We're coordinating with them right 
now. They're part of a coordination effort amongst a lot of 
different Federal entities that OEC is leading.
    Mr. Souder. On behalf of the taxpayers, the stovepiping 
gets incredibly frustrating. I mean I have a man in my district 
who at the request--this has got to be 15 years ago at this 
point trying to get the SNDRs radios and other military radios 
and you are just raising a technical problem. He's already 
fixed it, that you can take any different radios and 
interconnect the radios. It's not something that has to be 
invented here or it's as difficult as can be because we were 
running into this problem and when we're in a military 
situation, they can't have this happen. The question is why 
doesn't the technology that--this is true on some of our 
defense protection or other electronics protection.
    We're having huge problems where they can't get the cameras 
to work on Project 28 right now and Boeing's bringing in 
another team. They have already done this at the military bases 
10 years ago, and the interoperability of radios sounds to me a 
lot like a solution trying to find the problem. That, in other 
words, we've already solved it. The question is what's the cost 
of this? What is the challenge of this to get this type of 
thing? It's a similar thing that the Department of Interior 
hasn't looked at this enough and the Federal Government--I mean 
we start a forest fire and--forest fire starts and you have the 
Interior Department people looking, local fire department and 
different States come in and they have to take down helicopters 
and stop the spring because they can't talk to each other and 
they are afraid they are going to run into each other when, in 
fact, we've taken care of this.
    I would encourage you to not blame DHS here. The Department 
of Defense has been at times less than willing to share full 
cooperation. I mean, admittedly they are busy, but at the same 
time they tend not to do this, and Homeland Security has to be 
more aggressive or come to Congress and say, look, we're not 
getting the cooperation. We need you to push the Department of 
Defense because taxpayers have already funded a bunch of this 
stuff.
    Mr. Essid. Yes, sir, I agree, and I think your comments 
underscore a greater need for interoperability. The 
technologies exist--I think everyone on this panel here would 
agree that the technologies exist to solve the problem. What we 
need to invest in focusing on is governance, standard operating 
procedures, training and exercises. This is a 90 percent 
coordination, 10 percent technology problem, and Texas has done 
a great job of coordinating from what I'm hearing, and the 
coordination is where getting folks in a room and talking about 
these issues before an incident is how we're going to solve 
this problem, sir. I mean we've spent so much money on 
equipment, and as a State--former State person in Virginia when 
we did inventories I was always amazed at the amount of 
equipment, the sheer volume of stuff that people had bought to 
try to solve this problem.
    Mr. Souder. Let me ask you one other line of questioning on 
the risk assessment of how you decide where you are going to 
spend your money. Is it--I thought the implication was nearly 
divided by population at this point. Do you have some risk 
assessment criteria that can go beyond that? For example, where 
you see signing across from Detroit we have all these chemical 
plants right along the river versus a border crossing where--
how do you do the risk assessment on what the potential damage 
is to public safety--how do you factor in the tornado alleys in 
New Orleans where you are doing your communication system?
    Mr. Essid. Sir, we've been working with FEMA right now 
about how these risk assessments are done. I know it's usually 
a combination of population and then threat of natural or man-
made disaster, but I'm not exactly 100 percent up to how these 
different threat assessments are conducted. I mean----
    Mr. Souder. But there will be a prioritization process 
based on risk assessment? There will be a prioritization of 
where grants go based on risk assessment?
    Mr. Essid. I believe a portion of the funding will be as a 
risk assessment, yes, sir.
    Mr. Souder. Thank you.
    Mr. Cuellar. Thank you, Mr. Souder. At this time the Chair 
recognizes the gentleman from Texas also, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, and I want to thank 
all of the panelists. I also want to commend Mr. Peters and Mr. 
Simpson for your leadership on this issue. Getting five COGs 
together along the border with Mexico is not an easy thing to 
accomplish, and I've been to a couple of your meetings and I've 
sort of witnessed first-hand the great accomplishment that you 
had made in terms of laying the foundation and the structure--
maybe infrastructure in place to make it happen. I think that's 
actually a model I think the rest of the country can look at in 
terms of how to better put this together.
    My questions are--really have to do with funding because 
that's what we do in the Congress. We fund things, and we 
probably spend too much money, but this is an important issue I 
think we need to be spending money on. The last Congress we 
appropriated a billion dollars of grant funding for this 
purpose. Out of that billion dollars, $65 million came to the 
State of Texas, about $14.5 million of that went to the Houston 
area which does have some high-risk assets, leaving about 
roughly $50 million for the rest of the State.
    You just said, Mr. Simpson, that you need about $150 
million to really be able to fully fund and carry out your 
operations. Can you explain to me--obviously we're going to 
have a deficiency there. Can you explain to me what is it--what 
would be the plan with the full $150 million?
    Mr. Simpson. The $150 million estimate only pertains to the 
border COGs. Texas conducted the study about 8 years ago State-
wide which is kind of an updated $1.6 billion to really do 
everything that needs to be done in Texas. The border being a 
subset of that, estimates have been somewhere in excess of $150 
million to complete the radio system network from Brownsville 
to El Paso.
    Mr. McCaul. Where is that money going to come from?
    Mr. Simpson. Well, we're trying to be as inventive as 
possible. We have our regular Homeland Security grant funding 
as well as the FISA grant. Most of the granting authorities 
when you put forth the best of justifications, they like to see 
that you are maximizing the income from a variety of resources 
and that you had a long-term plan that you divided in phases 
and that you put together large consortiums of entities that 
are working cooperatively together.
    So with that in mind we're also looking at the Assistance 
to Firefighter Grant. Quite a bit of money is available there. 
The Community Oriented Police and Services Grants from the 
Department of Justice by invitation of certain metropolitan 
statistical areas which also received several in the last 2 
years and others at that time, so we're reaching out to all 
sources, plus there's local bond elections and COs and 
operating budgets. Those are still far short.
    Mr. McCaul. I guess Steve McGraw, my old friend from the 
FBI, is going to be making the allocations with regard to the 
$65 million to the State. You are working closely with him?
    Mr. Simpson. Very closely. In fact, if you factor out the 
State agency share and the strategic reserve funds, that leaves 
about $33 million for the various councils of governance, and 
if you divide 24 into $34 million, you get something like a 
million-three or whatever per COG and the COG may be made up of 
three to 20 counties. So you can see at the bottom end there's 
not a lot of money actually available at the user level.
    Mr. McCaul. Yeah, I agree that's going to be a rural 
problem. I failed to mention the city of Austin's role in all 
this, and being from Austin, I appreciate the leadership they 
have provided.
    Mr. Essid, getting to the funding issue, the 
administration's 2009 budget request for DHS does not include 
funding for the Interoperable Communications Grant Program and 
proposes to cut funding for the State Homeland Security Grant 
Program, another large funding source for these communications 
activities. In other words, sort of zero--we got a billion 
dollars last year in grant funding, but this budget request, as 
I understand it, and correct me if I'm wrong, is zeroed out 
with no money. In fact, they're not only zeroed out, but they 
are now giving you additional cuts. Can you explain why in this 
particular area?
    Mr. Essid. Well, no, sir. I do know--I can't explain that. 
I can just say that, you know, FEMA just recently released 16 
grant programs a few weeks ago and a lot of these grants, if 
not all of these grants, are eligible for interoperable 
communications investments. Communications investments go on in 
a lot of these different. They kind of dominate a lot of the 
grant requests throughout the Nation from all the States. It's 
such an important issue, so I know there is a lot of funding 
available in these larger Homeland Security grant programs and 
other grant programs that can be set aside by States and 
localities for interoperable communications, you know, and so 
there's a lot of opportunity here with the coordination we're 
seeing from the panel members here in Texas. I think that's the 
first step to investing in the right things, but, you know, 
communications investments are eligible for these grant funds.
    Mr. McCaul. In fact, I'm meeting with the DHS grants person 
after this hearing, and I'll be talking to him about this 
specific request. I think we got out in front, we have this 
structure in place and I'd like to see the funding there for 
you so that we can make it a success. It's something I think 
the rest of the country can appreciate.
    Last, I want to--my last question has to do with our 
relationship with Mexico. You talked about mutual aid--mutual 
border aid agreements. I think, Mr. Landin, you said that there 
are actually some of those in place already?
    Mr. Landin. We do have them in place, and we have gone--
mainly the United States, you know, Laredo has gone into Mexico 
and I know that Dr. Gonzalez works very closely with the 
physicians and the health departments on the Nuevo Laredo side. 
We do have a larger fire department than theirs, Nuevo Laredo, 
so basically the request mainly comes from them to us and we do 
honor those requests, and we do go into Mexico to provide those 
services.
    Mr. McCaul. Mr. Ledezma, we met with President Calderon. He 
mentioned that he has committed or dedicated 30,000 Mexican 
troops, soldiers, to the northern border or to the respective 
borders of Mexico, southern and northern. Can you comment on--
well, first of all, the level of communication between the 
Mexican military and our side of the border, who are they 
talking about? Are they talking to our military or are they 
talking to our law enforcement?
    Mr. Ledezma. There's a monthly meeting between both cities, 
the United States and Mexico, and there's collaboration between 
[Spanish] and Mr. Ledezma right now in the U.S. customs for 
civil protection, fire departments, the United States Army, the 
Mexican Army, also with the FBI. There's one right now is--my 
understanding from Mr. Ledezma right now there's a meeting and 
they're in communication right now. Like Mr. Ledezma said, 
there's via phone. That's all we have right now or the Nextel. 
That's our communication with the fire department. We 
communicate ourselves with Nextels. That's how we are--the 
communication we have right now.
    Mr. McCaul. Very last question and, again, to Mr. Ledezma. 
This may be outside the scope of this hearing, but since we 
have you here, I'd like to ask this question. That is the well-
being of the city of Nuevo Laredo. We know that the--a lot of 
businesses have moved out. We know that the level of violence 
that was there with the drug cartels. Can you comment on the 
current security in the city of Nuevo Laredo and particularly 
with the introduction of the new Federal troops?
    Mr. Ledezma. The intervention of the federal government or 
federal Army right now, it's rolled up by the authorities in 
Mexico right now. It gives you a better security to the people 
in Nuevo Laredo. Mr. Ledezma as director of the safety civil 
police, his work is to see the people in Nuevo Laredo have a 
better business there.
    Mr. McCaul. Thank you. We certainly wish you all the 
success there, that the businesses will be back in full force 
and health and prosperity and security. Thank you so much.
    Mr. Cuellar. Thank you, Mr. McCaul, and, again, it was a 
pleasure going with Representative McCaul to Mexico City just 
recently to a fact-finding case. I really appreciate it. It was 
very good for us. Any other questions? I have no further 
questions.
    Mr. Dent. Just one brief one.
    Mr. Cuellar. Yes, sir, Mr. Dent.
    Mr. Dent. Thank you. I'll be very brief. Mr. Simpson, I 
neglected to ask you during my first round: How did the Texas 
Radio Coalition work with the Office of Emergency 
Communications and did you guys consult with the OEC during the 
drafting of the State-wide Communications Interoperability 
Plan?
    Mr. Simpson. Our association with the OEC is kind of recent 
in nature, only in the matter of the last few weeks. We were 
struggling in the process last year to get this plan crunched 
in such a short period of time. We reached out to as many as we 
could. VHS, ICTAP particularly which is part of OEC did provide 
technical assistance to us during the search process and so we 
had a relationship there, but our relationship has kind of been 
renewed as of recent in the last 2 weeks with the Southwest 
Border Regional Working Group. In fact, they may be coming--
Chris and I were talking earlier about some of these folks 
coming to our next meeting in April to see what we were doing 
to kind of firm up those relations. So our relationship is 
improving with all Federal agencies, particularly OEC.
    Mr. Dent. So you really didn't get much feedback then from 
OEC regarding your State-wide plan?
    Mr. Simpson. Only through the ICTAP. That was very, very 
useful. They came down for several working days with a team of 
three people. It was intense sessions and lots of phone calls 
and it was very much appreciated.
    Mr. Cuellar. Thank you, Mr. Dent. Mr. Souder, any other 
questions?
    Mr. Souder. No.
    Mr. Cuellar. Mr. McCaul.
    Mr. McCaul. No, sir.
    Mr. Cuellar. First of all, before we start closing up, I 
want to thank my colleagues here. As you can tell, these 
Members are extremely knowledgeable in Homeland Security, 
whether it's in the northern part or the southern part of the 
United States, and, actually, we're all pretty docile in the 
questions because we've been a little more aggressive on the 
questioning, but today, you know, I really appreciate the work 
that they've done. They are colleagues of mine, and I really 
appreciate their expertise here. I know that some of them will 
be leaving us after a while, but I do want to thank them for 
coming down here to Laredo.
    A couple of just--couple things before we close up. I know 
one of the things that McCaul--we got together last night. We 
were talking about this. One of the things that we are going to 
be doing afterwards and anybody that's willing to join us after 
the grant seminar is that we're going to go down to an area 
where the Texas Soil and Water Conservation has worked on 
clearing up the Carrizo. As you know, there's different 
thoughts on how to do this. With all due respect to our friends 
at Homeland, they want to bring in--I think their solution is 
to bring in Spanish bugs to eat up the Carrizo. I'm concerned 
about what happens when they finish eating the Carrizo what 
sort of diet they are going to go after and that's going to 
take really honestly a couple of years before they see the 
unforeseen.
    There's some solutions that have been taken care of. In 
fact, Michael, I think you were at the Steve La Mantias ranch 
where they actually got rid of Carrizo and put grass there so 
make sure there is no erosion. So there's other places, and I 
know that afterwards if anybody wants to join us this after the 
grants, anybody that wants to join us, you are welcome to do 
that, No. 1.
    No. 2, we're going to go ahead and break off for lunch, but 
I do ask you to come back at 1:30. At 1:30 we have the other 
part, which is a grant seminar. The two folks that we have here 
is--these are key people that we have here. First of all, we 
have Mr. Ed Staples, the manager of the Homeland Security 
Grants Coordinator for the State. Is Edward here? Edward, thank 
you very much. Edward will be making a presentation, and we 
want to thank you again. Again, Federal and State dollars going 
in to you and we appreciate you being here. Ross Ashley, the 
FEMA assistant administrator, who's now the head of the grants 
program. Where is Ross? There you are. Thank you. Ross will be 
here. These two people are key to Federal grants and State 
dollars going--Federal dollars going through the State for the 
applications. I certainly want to welcome everybody. I know we 
got--I see many faces from--all the way from the valley up to 
the San Antonio area to former judges from Laredo. So many 
people here from Ryan Gant's office. So many other folks here. 
I would ask you to come back at 1:30. The two gentlemen will be 
making the presentation.
    This grant seminar is key. It really is. I know we've been 
very successful in getting more grants, but this presentation 
as to what dollars are available, what are the timetables, what 
are the criteria. I ask you to come back for all the first 
responders that we have. I'm really, really happy because we've 
got folks from all over the place. I'll ask you to come back, 
go have lunch, be back the same place here at 1:30.
    The last comment before I close up, Mr. Essid, I ask you to 
establish this relationship with Mr. Simpson, with Mr. Peters, 
Mr. Ledezma, Mr. Landin and any of the folks because you as the 
new director, and I know you are new and I appreciate that, but 
you got to work with these folks. These folks have been on the 
ground for years and years, and, you know, you were in 
Virginia. You understand how the State and locals can provide a 
lot of new ideas to the Federal Government.
    I would ask you to follow up with our staff. Coming down in 
April, that's great, but if you need to see them before, if 
y'all want to go up there before, please work with our staff so 
we could set up and facilitate the meetings, but, again, these 
people have been here on the ground for years and we ask you to 
please take advantage.
    So at this time with this house cleaning, we're going to go 
ahead and break for lunch. Be back at 1:30. Ask everybody to be 
back. I thank all the witnesses for the valuable testimony and 
the Members for their questions. The Members of the 
subcommittee may have some other questions to ask you. Having 
no further business, the hearing is now adjourned. Thank you.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairman Henry Cuellar of Texas for Chris Essid, 
 Director, Office of Emergency Communications, Office of Cybersecurity 
          and Communications, Department of Homeland Security

    Question 1. Mr. Essid, as you know, the International Border 
Interoperability Communications Demonstration Project was created by 
the Implementing Recommendations of the 9/11 Commission Act of 2007, 
which was signed into law on August 3, 2007. It is my understanding 
that your office has been coordinating with the FCC and the Department 
of Commerce to decide the location of six communities along the 
Northern and Southern borders for this pilot project. Can you give the 
committee an update of what has transpired thus far in your 
interactions with the FCC and the Commerce Department?
    Can you explain the criteria being developed to choose these six 
communities and when you expect it to begin?
    Given what you heard at the hearing on February 19, 2008 about the 
vulnerabilities and the unique border positioning we are confronted 
with in my District along the Texas-Mexico border, do you believe 
Laredo would be an appropriate location for this border demonstration 
project?
    Answer. The proposed selection criteria for the International 
Border Interoperability Communications Demonstration Project are broken 
down into four major categories:
  <bullet> Existing infrastructure/activities: examine established 
        working groups, activities, shared systems, and 
        interoperability solutions that can be leveraged for the 
        demonstration projects;
  <bullet> Priority locations: identify communities that have pressing 
        interoperability needs identified by Federal agencies, Canada, 
        or Mexico;
  <bullet> Risk: examine a range of factors that increase the need for 
        interoperable emergency communications; and
  <bullet> Geographic diversity: ensure that the selected communities 
        meet the legislative requirement to conduct the demonstration 
        projects in areas of differing population densities.
    These proposed selection criteria are currently being reviewed and 
approved internally within DHS. Upon approval, the criteria will be 
coordinated with the Federal Communications Commission, the State 
Department, and the Department of Commerce. At that time the Department 
will be able to assess specific locations.

    Question 2. As you all you know, Congress set the date of February 
17, 2009 to transfer portions of the 700 MHz spectrum to public safety 
in the fiscal year 2006 Budget Reconciliation Act. The FCC is currently 
in the process of auctioning this spectrum. In your testimony, Mr. 
Peters, you raise a very troubling fact--that the 700 MHz band will not 
become available to public safety along the Texas border until 
appropriate agreements between the United States and Mexico are 
negotiated.
    Mr. Essid, with the February 17, 2009 just a year away, can you 
explain who the principal Federal agencies involved in these 
negotiations--DHS, Department of State? How soon will these 
negotiations result in an agreement permitting Texas to manage and use 
this spectrum?
    Answer. In November 2006, the United States and Mexico signed a 
Protocol (agreement) to share the 700-MHz band. Since this time, the 
Federal Communications Commission (FCC) has modified the public safety 
allocations within this band. The U.S.-Mexico High Level Consultative 
Commission on Telecommunications (HLCC) is currently negotiating an 
amendment to the existing Protocol to reflect the new U.S. public-
safety allocation. The Department of State and the FCC are the 
principal Federal agencies within the HLCC involved in this negotiation 
and is striving to have the amendment in place before the February 17, 
2009, deadline.

  Questions From Chairman Henry Cuellar of Texas for Steve E. Landin, 
     Deputy Chief, Emergency Management Coordinator, Laredo, Texas

    Question 1a. Chief Landin, you and I are very aware of the unique 
challenges that public safety folks face in Los Dos Laredos when put to 
the test of responding to emergencies. Due to our geographic location, 
we have a strong Federal, State, and international presence in Laredo. 
In your testimony you spoke of the need of building a stronger Federal-
local partnership. Can you elaborate on your statement?
    Do you believe that the local government is accurately included in 
the decisionmaking process when it immediately affects Laredo? If so, 
why? If not, why not?
    Answer. Response was not received at the time of publication.
    Question 1b. Can you explain the day-to-day operational 
coordination and the cooperation between the government in Laredo with 
CBP/ICE and other Federal entities that are present here?
    Answer. Response was not received at the time of publication.

   Questions From Chairman Henry Cuellar of Texas for Alfonso Olvera 
  Ledezma, Director of City Security, Nuevo Laredo, Tamaulipas, Mexico

    Question. As you all you know, Congress set the date of February 
17, 2009 to transfer portions of the 700 MHz spectrum to public safety 
in the fiscal year 2006 Budget Reconciliation Act. The FCC is currently 
in the process of auctioning this spectrum. In your testimony, Mr. 
Peters, you raise a very troubling fact--that the 700 MHz band will not 
become available to public safety along the Texas border until 
appropriate agreements between the United States and Mexico are 
negotiated.
    Mr. Ledezma, who in the Mexican government are the equivalent 
participants that are negotiating these agreements?
    Answer. Response was not received at the time of publication.

   Questions From Chairman Henry Cuellar of Texas for Joe M. Peters, 
  Director, Technology Assistance Division, Sheriffs' Association of 
                                 Texas

    Question 1. Mr. Peters, in your testimony you mention how 
antiquated communications systems are in rural parts of Texas and that 
border regions within our State have historically been underserved. Can 
you explain to the committee how dire the situation is?
    Can you describe some areas in which Texas is progressing and what 
is being done to address the emergency communications challenges?
    Answer. Response was not received at the time of publication.

    Question 2. As you all you know, Congress set the date of February 
17, 2009 to transfer portions of the 700 MHz spectrum to public safety 
in the fiscal year 2006 Budget Reconciliation Act. The FCC is currently 
in the process of auctioning this spectrum. In your testimony, Mr. 
Peters, you raise a very troubling fact--that the 700 MHz band will not 
become available to public safety along the Texas border until 
appropriate agreements between the United States and Mexico are 
negotiated.
    Mr. Peters, can you further elaborate on how you believe this would 
impact Texas--what are the outstanding issues that you are aware of?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
